APPENDIX

TABLE OF CONTENTS

Appendix A:

Court of appeals opinion,
Mar. 6, 2020 .................................................... 1a

Appendix B:

District court opinion,
June 10, 2019 ................................................ 31a

Appendix C:

District court memorandum opinion
accompanying stay order,
July 31, 2019 ................................................. 82a

Appendix D:

Court of appeals stay order,
Oct. 1, 2019 ................................................... 95a

APPENDIX A
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

No. 19-1644

MAYOR AND CITY COUNCIL OF BALTIMORE,
Petitioner-Appellee
v.
BP P.L.C.; BP AMERICA, INC.; BP PRODUCTS
NORTH AMERICA, INC.; CROWN CENTRAL LLC;
CROWN CENTRAL NEW HOLDINGS LLC;
CHEVRON CORP.; CHEVRON U.S.A. INC.;
EXXON MOBIL CORP.; EXXONMOBIL OIL
CORPORATION; ROYAL DUTCH SHELL, PLC;
SHELL OIL COMPANY; CITGO PETROLEUM
CORP.; CONOCOPHILLIPS; CONOCOPHILLIPS
COMPANY; PHILLIPS 66; MARATHON OIL
COMPANY; MARATHON OIL CORPORATION;
MARATHON PETROLEUM CORPORATION;
SPEEDWAY LLC; HESS CORP.; CNX RESOURCES
CORPORATION; CONSOL ENERGY, INC.; CONSOL
MARINE TERMINALS LLC,
Respondents-Appellants
and
LOUISIANA LAND & EXPLORATION CO.;
PHILLIPS 66 COMPANY; CROWN CENTRAL
PETROLEUM CORPORATION,
Defendants

(1a)

2a

Filed: March 6, 2020
GREGORY, Chief Judge, and FLOYD and THACKER,
Circuit Judges.
OPINION
FLOYD, Circuit Judge.
This appeal is about whether a climate-change lawsuit
against oil and gas companies belongs in federal court.
But this decision is only about whether one path to federal
court lies open. Because 28 U.S.C. § 1447(d) confines our
appellate jurisdiction, the narrow question before us is
whether removal of this lawsuit is proper under 28 U.S.C.
§ 1442, commonly referred to as the federal officer removal statute. And because we conclude that § 1442 does
not provide a proper basis for removal, we affirm the district court’s remand order.
I.
In July 2018, the Mayor and City of Baltimore (“Baltimore”) filed suit in Maryland state court against twentysix multinational oil and gas companies (“Defendants”)
that it says are partly responsible for climate change. 1
Defendants consist of BP entities (BP P.L.C., BP America, Inc.,
and BP Products North America Inc.); Crown Central entities
(Crown Central Petroleum Corporation, Crown Central LLC, and
Crown Central New Holdings LLC); Chevron entities (Chevron
Corp. and Chevron U.S.A. Inc.); Exxon Mobil entities (Exxon Mobil
Corp. and ExxonMobil Oil Corporation); Shell entities (Royal Dutch
Shell PLC and Shell Oil Company); Citgo Petroleum Corp.; ConocoPhillips entities (ConocoPhillips, ConocoPhillips Company, Louisiana Land & Exploration Co., Phillips 66, and Phillips 66 Company);
1

3a
According to Baltimore, Defendants substantially contributed to climate change by producing, promoting, and
(misleadingly) marketing fossil fuel products long after
learning the dangers associated with them. Specifically,
Baltimore alleges that, despite knowing about the direct
link between fossil fuel use and global warming for nearly
fifty years, Defendants have engaged in a “coordinated,
multi-front effort” to conceal that knowledge; have tried
to discredit the growing body of publicly available scientific evidence by championing sophisticated disinformation campaigns; and have actively attempted to undermine public support for regulation of their business practices, all while promoting the unrestrained and expanded
use of their fossil fuel products. See J.A. 43-47. As a result
of Defendants’ conduct, Baltimore avers that it has suffered various “climate change-related injuries,” J.A. 92,
including an increase in sea levels, storms, floods, heatwaves, droughts, and extreme precipitation. So Baltimore
sued Defendants to shift some of the costs of these injuries on to them.
The Complaint asserts eight causes of action, all
founded on Maryland law: public and private nuisance
(Counts I-II); strict liability for failure to warn and design
defect (Counts III-IV); negligent design defect and failure
to warn (Counts V-VI); trespass (Count VII); and violations of the Maryland Consumer Protection Act, Md.
Code, Com. Law §§ 13-101 to 13-501 (Count VIII). As relief, Baltimore seeks monetary damages, civil penalties,
and equitable relief. It does not “seek to impose liability
on Defendants for their direct emissions of greenhouse
Marathon entities (Marathon Oil Company, Marathon Oil Corporation, Marathon Petroleum Corporation, and Speedway LLC); Hess
Corp.; and CONSOL entities (CNX Resources Corporation, CONSOL Energy Inc., and CONSOL Marine Terminals LLC).

4a
gases” or to “restrain Defendants from engaging in their
business operations.” J.A. 47.
Two Defendants, Chevron Corporation and Chevron
U.S.A. Inc. (collectively, “Chevron”), timely removed the
case to the United States District Court for the District of
Maryland.
Before continuing, a brief introduction to the various
grounds for removal is helpful. Under 28 U.S.C. § 1441,
the general removal statute, “any civil action brought in a
State court of which the district courts of the United
States have original jurisdiction” may be removed by the
defendants “to the district court of the United States for
the district and division embracing the place where such
action is pending.” Id. § 1441(a); see also, e.g., 28 U.S.C.
§ 1331 (conferring “original jurisdiction” over cases that
“aris[e] under” federal law). In addition, a civil action filed
in state court may be removed to federal court if a specialized removal provision applies, such as the bankruptcy removal statute, 28 U.S.C. § 1452, or, as pertinent here, the
federal officer removal statute, 28 U.S.C. § 1442.
In this case, Chevron asserted eight grounds for removal. Four of those grounds were premised on federalquestion jurisdiction under 28 U.S.C. § 1331. Chevron argued that Baltimore’s claims arose under federal law
within the meaning of § 1331 because they (1) were governed by federal common law, rather than state law; (2)
raised disputed and substantial issues of federal law under Grable & Sons Metal Products, Inc. v. Darue Engineering & Manufacturing, 545 U.S. 308 (2005); (3) were
completely preempted by the Clean Air Act, 42 U.S.C.
§§ 7401-7671q, as well as the foreign affairs doctrine; and
(4) were based on conduct or injuries that occurred on federal enclaves. The remaining grounds relied on alternative jurisdictional and removal statutes, including: (1) the
jurisdictional grant in the Outer Continental Shelf Lands

5a
Act (“OCSLA”), 43 U.S.C. § 1349(b); (2) the admiralty jurisdiction statute, 28 U.S.C. § 1333; (3) the bankruptcy removal statute, 28 U.S.C. § 1452; and (4) the federal officer
removal statute, 28 U.S.C. § 1442. 2
Baltimore then moved to remand the case back to
state court under 28 U.S.C. § 1447(c), which some Defendants opposed. 3 In its forty-five-page opinion granting
Baltimore’s remand motion, the district court rejected
each of the eight theories asserted by Defendants in support of removal. See generally BP P.L.C., 388 F. Supp. 3d
538.
This timely appeal followed. Shortly after noticing
their appeal, Defendants moved the district court to stay
the execution of the remand to state court pending this
appeal. The district court denied the motion, as did this
Court. The Supreme Court likewise denied Defendants’
application for a stay. See BP P.L.C. v. Mayor & City
Council of Balt., 140 S. Ct. 449 (2019) (mem.).

Because the OCSLA and admiralty statute are jurisdictional,
Chevron relied upon the general removal statute, § 1441(a), as the
statutory hook for removal for these grounds as well. As previously
noted, the bankruptcy and federal officer statutes are specialized removal provisions. The bankruptcy statute authorizes removal in
cases over which the district court has original jurisdiction per 28
U.S.C. § 1334, including in civil proceedings that “aris[e] in or relate[]
to cases under title 11.” See 28 U.S.C. § 1452(a). The federal officer
removal statute lies at the heart of this appeal and is discussed in
greater detail in Part III.
2

3
Five of the twenty-six Defendants did not oppose remand. See
Mayor & City Council of Balt. v. BP P.L.C., 388 F. Supp. 3d 538, 549
n.2 (D. Md. 2019) (noting that three Defendants—Crown Central Petroleum Corp., Louisiana Land & Exploration Co., and Phillips 66
Company—appeared to have been improperly named in the Complaint, and two others—Marathon Oil Company and Marathon Oil
Corporation—did not join in the opposition to remand).

6a
II.
As in all cases involving an appeal of a remand order,
we must confront the threshold question of our appellate
jurisdiction.
“The authority of appellate courts to review districtcourt orders remanding removed cases to state court is
substantially limited by statute,” namely, 28 U.S.C.
§ 1447(d). Powerex Corp. v. Reliant Energy Servs., Inc.,
551 U.S. 224, 229 (2007). When a remand is based on a
lack of subject-matter jurisdiction, see Carlsbad Tech.,
Inc. v. HIF Bio, Inc., 556 U.S. 635, 638 (2009), review of
the remand order “on appeal or otherwise” is typically
barred—however “manifestly” and “inarguably erroneous” it may be, In re Norfolk S. Ry., 756 F.3d 282, 287 (4th
Cir. 2014) (internal quotation mark omitted)—unless the
case was removed pursuant to one of two specialized removal statutes. Specifically, § 1447(d) provides:
An order remanding a case to the State court from
which it was removed is not reviewable on appeal or
otherwise, except that an order remanding a case to
the State court from which it was removed pursuant to
section 1442 or 1443 of this title shall be reviewable by
appeal or otherwise.
28 U.S.C. § 1447(d); see also 28 U.S.C. § 1442 (“Federal
officers or agencies sued or prosecuted”); 28 U.S.C. § 1443
(“Civil rights cases”).
Therefore, as a matter of statutory interpretation, we
must first determine the scope of our appellate jurisdiction under § 1447(d) de novo. See Stone v. Instrumentation Lab. Co., 591 F.3d 239, 242-43 (4th Cir. 2009). As explained below, we conclude that such jurisdiction does not
extend to the non-§ 1442 grounds that were considered
and rejected by the district court.

7a
In Noel v. McCain, 538 F.2d 633 (4th Cir. 1976), this
Court held that when a case is removed on several
grounds, appellate courts lack jurisdiction to review any
ground other than the one specifically exempted from
§ 1447(d)’s bar on review. Thus, in that case, we dismissed
an appeal to the extent that it sought review of an order
remanding a case for “failure to raise federal questions.”
Id. at 635. “Jurisdiction to review remand of a § 1441(a)
removal,” we explained, “is not supplied by also seeking
removal under § 1443(1).” Id.
Because the only ground for removal that is made reviewable by § 1447(d) here is federal officer removal under § 1442, Noel teaches that our jurisdiction is confined
to this ground alone; it does not extend to the seven other
grounds for removal raised by Defendants, even though
the district court rejected them in the same remand order.
Notwithstanding our holding in Noel, Defendants insist that we have jurisdiction to review the entire remand
order. That is so, Defendants say, because Noel has been
effectively abrogated by the Supreme Court’s decision in
Yamaha Motor Corp., U.S.A. v. Calhoun, 516 U.S. 199
(1996), as well as the Removal Clarification Act of 2011,
Pub. L. No. 112-51, 125 Stat. 545 (codified in scattered sections of 28 U.S.C.). They are wrong.
We begin with Yamaha. There, the Supreme Court
interpreted the word “order” within the meaning of the
interlocutory appeal statute, 28 U.S.C. § 1292(b). In particular, the Court addressed whether, under § 1292(b),
federal courts of appeals may exercise jurisdiction over
any question that is included within an order certified for
interlocutory appeal or, alternatively, whether such jurisdiction is limited to review of the controlling question of
law identified by the district court—i.e., the question that
makes an interlocutory appeal appropriate in the first
place. See Yamaha, 516 U.S. at 204-05. Section 1292(b)

8a
provides, in relevant part, that if a district judge concludes that “an order not otherwise appealable” in a civil
action “involves a controlling question of law as to which
there is substantial ground for difference of opinion,” and
that “an immediate appeal from the order may materially
advance the ultimate termination of the litigation,” then
the judge shall “so state in writing in such order.” 28
U.S.C. § 1292(b). “The Court of Appeals . . . may thereupon, in its discretion, permit an appeal to be taken from
such order.” Id. Based on the text of § 1292(b), the
Yamaha Court held that appellate jurisdiction under that
statute “applies to the order certified to the court of appeals, and is not tied to the particular question formulated
by the district court.” 516 U.S. at 205. As such, courts of
appeals “may address any issue fairly included within the
certified order because it is the order that is appealable.”
Id. (internal quotation mark omitted).
Although at least one other circuit has found Yamaha
persuasive in interpreting the word “order” under
§ 1447(d) as a matter of first impression, see Lu Junhong
v. Boeing Co., 792 F.3d 805, 810-13 (7th Cir. 2015), 4 we
simply cannot conclude that our contrary interpretation
in Noel is abrogated. True, the Supreme Court’s interpretation of the word “order” in Yamaha was entirely tex-

Though the Sixth Circuit reached a similar conclusion in Mays v.
City of Flint, 871 F.3d 437, 442 (6th Cir. 2017), cert. denied, 138 S. Ct.
1557 (2018), it merely cited Lu Junhong in doing so and did not so
much as address its earlier precedent applying a contrary rule, see,
e.g., Detroit Police Lieutenants & Sergeants Ass’n v. City of Detroit,
597 F.2d 566, 567-68 (6th Cir. 1979). Similarly, although the Fifth
Circuit has followed Lu Junhong’s lead, see Decatur Hosp. Auth. v.
Aetna Health, Inc., 854 F.3d 292, 295-97 (5th Cir. 2017), it, too, has
potentially conflicting authority on the issue, see City of Walker v.
Louisiana, 877 F.3d 563, 566 & n.2 (5th Cir. 2017).
4

9a
tual. But it did not purport to establish a general rule governing the scope of appellate jurisdiction for every statute
that uses that word. See Yamaha, 516 U.S. at 205. And
for good reason: Section 1292(b) governs when an appellate court may review a particular question within its discretion. Section 1447(d), by contrast, limits which issues
are “reviewable on appeal or otherwise.” Put another
way, § 1292(b) permits appellate review of important issues before final judgment, but it does not make otherwise
non-appealable questions reviewable. Reading “order” to
authorize plenary review thus makes sense in the
§ 1292(b) context, as § 1292(b) only affects the timing of
review for otherwise appealable questions. But giving the
word “order” the same meaning in the § 1447(d) context
would mandate review of issues that are ordinarily unreviewable, period—even following a final judgment. See
generally Yates v. United States, 135 S. Ct. 1074, 1082
(2015) (“[I]dentical language may convey varying content
when used in different statutes, sometimes even in different provisions of the same statute.”).
The Removal Clarification Act of 2011 does not alter
this conclusion. The Act amended § 1447(d), among other
statutes, “by inserting ‘1442 or’ before ‘1443.’ ” 125 Stat.
at 546. Because the Act “retain[s] § 1447(d)’s reference to
reviewable ‘orders,’ even after Yamaha,” Defendants contend that Congress must have intended to authorize “plenary review” of such orders. Opening Br. 12. Although
Defendants are correct that courts may generally “presume” that Congress is “aware of judicial interpretations”
of statutes, Jackson v. Home Depot U.S.A., Inc., 880 F.3d
165, 171 (4th Cir. 2018), we find Yamaha distinguishable
for the reasons stated above. Yamaha did not interpret
the scope of § 1447(d), let alone involve a remand order.
Cf. Jackson, 880 F.3d at 170-71 (interpreting word “defendant” to have same meaning in “interlocking removal

10a
statutes”). Moreover, to the extent that Defendants attempt to argue that we are not bound by Noel’s interpretation of § 1447(d) because Noel was decided before orders remanding cases removed pursuant to § 1442 were
made reviewable, see 538 F.2d at 635 (interpreting prior
version of § 1447(d) in which § 1443 was sole exception),
we find that argument unpersuasive. Simply put, the fact
that Congress later added § 1442 as an exception to
§ 1447(d)’s no-appeal rule for remand orders does not undermine our holding in Noel that appellate courts only
have jurisdiction to review those grounds for removal that
are specifically enumerated in § 1447(d).
In sum, Noel remains binding precedent in this Circuit. 5 Accordingly, “we dismiss this appeal for lack of jurisdiction,” id., insofar as it seeks to challenge the district
court’s determination with respect to the propriety of removal based on federal-question, OCSLA, admiralty, and
bankruptcy jurisdiction.
III.
Having determined that we only have jurisdiction to
review the district court’s conclusion that removal was improper under the federal officer removal statute, we now
turn to that issue.
“We review de novo issues of subject matter jurisdiction, including removal.” Ripley v. Foster Wheeler LLC,
841 F.3d 207, 209 (4th Cir. 2016). Although Defendants
We note that we are not alone in continuing to interpret § 1447(d)
consistently with Noel, even in the wake of Yamaha and the passage
of the Removal Clarification Act. See Jacks v. Meridian Res. Co., 701
F.3d 1224, 1229 (8th Cir. 2012); see also Claus v. Trammell, 773 F.
App’x 103, 103 (3d Cir. 2019) (citing Davis v. Glanton, 107 F.3d 1044,
1047 (3d Cir. 1997)); Wong v. Kracksmith, Inc., 764 F. App’x 583, 584
(9th Cir. 2019) (citing Patel v. Del Taco, Inc., 446 F.3d 996, 998 (9th
Cir. 2006)).
5

11a
bear the burden of establishing jurisdiction as the party
seeking removal, see Dixon v. Coburg Dairy, Inc., 369
F.3d 811, 816 (4th Cir. 2004), the federal officer removal
statute must be “liberally construed,” Watson v. Philip
Morris Co., 551 U.S. 142, 150 (2007) (quoting Colorado v.
Symes, 286 U.S. 510, 517 (1932)). As such, the ordinary
“presumption against removal” does not apply. See Betzner v. Boeing Co., 910 F.3d 1010, 1014 (7th Cir. 2018).
The federal officer removal statute authorizes the removal of state-court actions filed against “any officer (or
any person acting under that officer) of the United States
or of any agency thereof, in an official or individual capacity, for or relating to any act under color of such office.”
28 U.S.C. § 1442(a)(1). Its “basic purpose” is to protect
against the interference with federal operations that
would ensue if a state were able to arrest federal officers
and agents acting within the scope of their authority and
bring them to trial in a state court for an alleged state-law
offense. Watson, 551 U.S. at 150 (explaining that statecourt proceedings may “reflect local prejudice against unpopular federal laws or federal officials,” “impede [enforcement of federal law] through delay,” or “deprive federal officials of a federal forum in which to assert federal
immunity defenses” (internal quotation marks omitted)).
Thus, to remove a case under § 1442(a)(1), a private
defendant must show: “(1) that it ‘act[ed] under’ a federal
officer, (2) that it has ‘a colorable federal defense,’ and (3)
that the charged conduct was carried out for [or] in relation to the asserted official authority.” Sawyer v. Foster
Wheeler LLC, 860 F.3d 249, 254 (4th Cir. 2017) (first alteration in original) (citations omitted). Here, Defendants
assert that Baltimore’s state-court action is removable under the federal officer removal statute “because the City
bases liability on activities undertaken at the direction of
the federal government.” BP P.L.C., 388 F. Supp. 3d at

12a
567 (internal quotation mark omitted). It is the first and
third prongs that are therefore in dispute. See Resp. Br.
14-21. We begin with the first, though the acting-under
and causal-nexus prongs often “collapse into a single requirement.” In re MTBE Prods. Liab. Litig., 488 F.3d
112, 124 (2d Cir. 2007); see also 28 U.S.C. § 1442(a)(1) (targeting for removal state-court actions “for or relating to
any act under color of [federal] office”).
A.
The statutory phrase “acting under” describes “the
triggering relationship between a private entity and a federal officer.” Watson, 551 U.S. at 149. Although the
words “acting under” are “broad,” the Supreme Court has
emphasized that they are not “limitless.” Id. at 147. In
cases involving a private entity, the “acting under” relationship requires that there at least be some exertion of
“subjection, guidance, or control” on the part of the federal government. See id. at 151 (quoting Webster’s New
International Dictionary 2765 (2d ed. 1953)). Additionally,
“precedent and statutory purpose” make clear that “ ‘acting under’ must involve an effort to assist, or to help carry
out, the duties or tasks of the federal superior.” Id. at 152.
In Watson, the Supreme Court held that “simply complying with the law” does not constitute the type of “help
or assistance necessary to bring a private [entity] within
the scope of the statute,” id., no matter how detailed the
government regulation or how intensely the entity’s activities are supervised and monitored, see id. at 153. In doing
so, the Court distinguished several decisions cited by the
defendant there in which lower courts had held that private contractors fell within the terms of § 1442(a)(1), at
least where the relationship was “an unusually close one
involving detailed regulation, monitoring, or supervision.”
Id. at 153 (citing Winters v. Diamond Shamrock Chem.

13a
Co., 149 F.3d 387 (5th Cir. 1998)). The difference between
those cases and a case involving a highly regulated private
firm, the Court reasoned, was the fulfillment of a government need:
The answer to this question lies in the fact that the private contractor in such cases is helping the Government to produce an item that it needs. The assistance
that private contractors provide federal officers goes
beyond simple compliance with the law and helps officers fulfill other basic governmental tasks. In the
context of Winters, for example, Dow Chemical fulfilled the terms of a contractual agreement by providing the Government with a product that it used to help
conduct a war. Moreover, at least arguably, Dow performed a job that, in the absence of a contract with a
private firm, the Government itself would have had to
perform.
Id. at 153-54.
The Supreme Court found these circumstances sufficient to distinguish Dow Chemical (the contractor in Winters) from the regulated tobacco companies who sought
removal in Watson, and so it did not address “whether and
when particular circumstances may enable private contractors to invoke the statute.” Id. at 154. Nevertheless,
in light of the Court’s reasoning, we have relied on Watson
to hold that certain private contractors “act under” federal officials. See Sawyer, 860 F.3d at 255. In Sawyer, we
observed that “courts have unhesitatingly treated the
‘acting under’ requirement as satisfied where a contractor
seeks to remove a case involving injuries arising from
equipment that it manufactured for the government.” Id.
Thus, in that case, we found that the defendant “acted un-

14a
der” the United States Navy when it manufactured boilers to be used aboard naval vessels per a detailed government contract. See id. at 252-53, 255.
B.
Here, Defendants collectively seek removal under
§ 1442 based on three contractual relationships between
certain Defendants and the federal government: (1) fuel
supply agreements between one Defendant (Citgo) and
the Navy Exchange Service Command (“NEXCOM”)
from 1988 to 2012; (2) oil and gas leases administered by
the Secretary of the Interior under the OCSLA; and (3) a
1944 unit agreement between the predecessor of another
Defendant (Chevron) and the U.S. Navy for the joint operation of a strategic petroleum reserve in California
known as the Elk Hills Reserve. For the reasons that follow, we agree with Baltimore that none of these relationships are sufficient to justify removal under the federal
officer removal statute in this case, either because they
fail to satisfy the acting-under prong or because they are
insufficiently related to Baltimore’s claims for purposes of
the nexus prong.
1.
First, we have little trouble concluding that the NEXCOM fuel supply agreements do not satisfy the “acting
under” requirement. These agreements required Defendant Citgo to advertise, supply, and distribute gasoline
and diesel to NEXCOM, which NEXCOM resold at a discount to “active duty military, retirees, reservists, and
their families” at “service stations operated by NEXCOM
on Navy bases located in a number of states across the
country.” J.A. 216. Although Defendants contend that
Citgo helped “the Government to produce an item that it
needs” by selling NEXCOM fuel for resale on Navy bases,

15a
see Watson, 551 U.S. at 153, such logic would bring every
seller of contracted goods and services within the ambit of
§ 1442 when the government is a customer.
We refuse to adopt such a sweeping interpretation of
Watson. In our view, the key lesson from Watson is that
closely supervised government contractors are distinguishable from intensely regulated private firms because
the former assist the government in carrying out basic
governmental functions. See 551 U.S. at 153-54 (“The assistance that private contractors provide federal officers
goes beyond simple compliance with the law and helps officers fulfill other basic governmental tasks . . . . [that] the
Government itself would [otherwise] have . . . to perform.”). And the provision of means to engage in chemical
warfare, as in Winters, or even the provision of specific
component parts to be used aboard military vessels, as in
Sawyer, is different in kind from the provision of motor
vehicle fuel for resale on Navy bases—both in terms of the
nature of the “item” provided and the level of supervision
and control that is contemplated by the contract.
To be sure, other circuits have applied the Watson dictum beyond the military-procurement-contract context,
and we do not suggest that only defense contractors may
invoke the federal officer removal statute. 6 Yet none of
those cases have confronted a contract like the one we
have here, which involves the sale of a standardized consumer product. Indeed, the Ninth Circuit has held, albeit
For cases involving people other than defense contractors, see,
for example, Goncalves ex rel. Goncalves v. Rady Children’s Hosp.
San Diego, 865 F.3d 1237,1245-49 (9th Cir. 2017); In re Commonwealth’s Motion to Appoint Counsel Against or Directed to Defender
Ass’n of Phila., 790 F.3d 457, 469 (3d Cir. 2015); Bell v. Thornburg,
743 F.3d 84, 89 (5th Cir. 2014); Jacks v. Meridian Res. Co., 701 F.3d
1224, 1232-35 (8th Cir. 2012); Bennett v. MIS Corp., 607 F.3d 1076,
1088 (6th Cir. 2010).
6

16a
in an unpublished decision, that the fact that the federal
government purchases “off-the-shelf” products from a
manufacturer “does not show that the federal government
[has] supervised [the] manufacture of [such products] or
directed [that they be] produce[d] in a particular manner,
so as to come within the meaning of ‘act[ed] under.’ ”
Washington v. Monsanto Co., 738 F. App’x 554, 555 (9th
Cir. 2018) (sixth alteration in original) (quoting 28 U.S.C.
§ 1442(a)(1)).
Although Defendants strongly resist the off-the-shelfproducts analogy by pointing to particular provisions in
the fuel supply agreements, we find those provisions unavailing. Defendants emphasize that the agreements: (1)
“set forth detailed ‘fuel specifications’ that required compliance with specified American Society for Testing and
Materials standards, and compelled NEXCOM to ‘have a
qualified independent source analyze the products’ for
compliance with those specifications”; (2) “authorized the
Contracting Officer to inspect delivery, site, and operations”; and (3) “established detailed branding and advertising requirements.” Reply Br. 19-20 (footnotes omitted). But we have reviewed the contractual provisions
cited by Defendants, and they are a far cry from the type
of close supervision that existed in both Sawyer and Winters. See Sawyer, 860 F.3d at 253 (noting that the Navy
provided “highly detailed ship [and military] specifications” that boilers were required to match, and exercised
“intense direction and control . . . over all written documentation to be delivered with its naval boilers,” including
warnings (internal quotation marks omitted)); Winters,
149 F.3d at 398-99 (noting that the Department of Defense required Dow Chemical to provide Agent Orange
under threat of criminal sanctions, maintained strict control over the chemical’s development, and required that it
be produced according to its specifications); cf. Isaacson

17a
v. Dow Chem. Co., 517 F.3d 129, 138 (2d Cir. 2008) (rejecting “off-the-shelf argument” because “commercially available products did not contain the Agent Orange herbicides in a concentration as high as that found in Agent Orange”). Rather, the cited provisions seem typical of any
commercial contract. They are incidental to sale and
sound in quality assurance. 7
2.
Next up are the oil and gas leases. Defendants allege
that Chevron and “other Defendants” have extracted oil
and gas on the federal Outer Continental Shelf (“OCS”) 8
pursuant to a leasing program administered by the Secretary of the Interior under the OCSLA. J.A. 212; see, e.g.,
J.A. 233-39 (boilerplate lease); see also Jewell, 779 F.3d at
592 (“The [OCSLA] created a framework to facilitate the
orderly and environmentally responsible exploration and
extraction of oil and gas deposits on the OCS. It charges
the Secretary of the Interior with preparing a program

In light of the misleading-marketing allegations that are at the
center of Baltimore’s Complaint, we pause to note that the “detailed
branding and advertising requirements” cited by Defendants have
absolutely nothing to do with those allegations. They simply address
whether and when the government will market a branded product under a contractor’s brand or trade name. See BP P.L.C. v. Mayor &
City Council of Balt., No. 18-2357 (D. Md.), ECF No. 127-6 at 23
(§ C.11), ECF No. 127-7 at 15 (§ C.9).
7

8
The OCS is “a vast underwater expanse” that begins “a few miles
from the U.S. coast, where states’ jurisdiction ends,” and “extends
roughly two hundred miles into the ocean to the seaward limit of the
international-law jurisdiction of the United States.” Ctr. for Sustainable Econ. v. Jewell, 779 F.3d 588, 592 (D.C. Cir. 2015); see also 43
U.S.C. § 1331(a) (defining “outer Continental Shelf”). “Billions of barrels of oil and trillions of cubic feet of natural gas lie beneath [it].”
Jewell, 779 F.3d at 592.

18a
every five years containing a schedule of proposed leases
for OCS resource exploration and development.”).
The leases grant lessees “the exclusive right and privilege to drill for, develop, and produce oil and gas resources” in the submerged lands of the OCS in exchange
for certain royalties on production, see J.A. 233-34, and requires them to exercise diligence in the development of
the leased area by engaging in exploration, development,
and production activities in accordance with governmentapproved plans, see J.A. 234; see also 30 C.F.R.
§§ 550.200-.299 (expounding plans referenced in lease).
The leases also place certain conditions on the disposition
of oil and gas that is produced. Defendants highlight two
such conditions. The first mandates that twenty percent
of production be offered to “small or independent refiners.” J.A. 235. The second gives the government a right
of first refusal to purchase all production “[i]n time of war
or when the President of the United States shall so prescribe.” J.A. 235.
Defendants argue that the foregoing provisions
demonstrate that the Defendant lessees were “acting under” the Secretary of the Interior in extracting, producing, and selling fossil fuel products on the OCS. We disagree.
For starters, we note that many of lease terms are
mere iterations of the OCSLA’s regulatory requirements.
Though OCS resource development is highly regulated,
“differences in the degree of regulatory detail or supervision cannot by themselves transform . . . regulatory compliance into the kind of assistance” that triggers the “acting under” relationship. See Watson, 551 U.S. at 157. Of
course, the presence of a contractual relationship (here, a
lease) is an important distinction. But we are skeptical
that the willingness to lease federal property or mineral
rights to a private entity for the entity’s own commercial

19a
purposes, without more, could ever be characterized as
the type of assistance that is required to trigger the government-contractor analogy. See, e.g., Bd. of Cty.
Comm’rs v. Suncor Energy (U.S.A.) Inc., 405 F. Supp. 3d
947, 977 (D. Colo. 2019) (“At most, the leases appear to
represent arms-length commercial transactions whereby
ExxonMobil agreed to certain terms (that are not in issue
in this case) in exchange for the right to use governmentowned land for their own commercial purposes.”), appeal
docketed, No. 19-1330 (10th Cir. Sept. 9, 2019).
Moreover, we need not decide whether the OCSLA
leases are distinguishable from other more run-of-themill natural-resources leases because they implicate national energy needs. Either way, we are not convinced
that the supervision and control to which OCSLA lessees
are subject connote the sort of “unusually close” relationship that courts have previously recognized as supporting
federal officer removal. See Watson, 551 U.S. at 153-54;
see also supra pp. 19-20 (discussing Winters and Sawyer).
As Baltimore points out, the leases do not appear to dictate that Defendants “extract fossil fuels in a particular
manner.” Resp. Br. 18. Nor do they appear to vest the
government with control over “the composition of oil or
gas to be refined and sold to third parties,” let alone purport to affect “the content or methods of Defendants’ communications with customers, consumers, and others about
Defendants’ [fossil fuel] products.” Resp. Br. 18; accord
Suncor Energy, 405 F. Supp. 3d at 976-77. 9
Defendants do not seriously contend otherwise. Instead, in their
documents here and below, they repeatedly point to the same lease
provisions that we cite above, without further explanation. This is a
complex case, and we do not intend to suggest that Defendants were
required to outline the leases’ requirements in painstaking detail in
order to satisfy their burden of justifying federal officer removal. But
they must provide “ ‘candid, specific and positive’ allegations that they
9

20a
Finally, even to the extent that the OCSLA leases toe
the “acting under” line, we still agree with the district
court’s analysis as to § 1442’s third prong. Any connection
between fossil fuel production on the OCS and the conduct
alleged in the Complaint is simply too remote.
To satisfy the third prong, the conduct charged in the
Complaint need only “relate to” the asserted official authority. See Sawyer, 860 F.3d at 257-58; see also 28 U.S.C.
§ 1442(a)(1) (“for or relating to any act under color of such
office” (emphasis added)). That is, there must be “a connection or association between the act in question and the
federal office.” Sawyer, 860 F.3d at 258 (emphasis omitted) (quoting Papp v. Fore-Kast Sales Co., 842 F.3d 805,
813 (3d Cir. 2016)). We elaborated upon this requirement
in Sawyer. There, we held that the district court imposed
“a stricter standard of causation than that recognized by
the statute” by demanding a showing of “specific government direction” as to whether the defendant manufacturer should have warned shipyard workers who assembled boilers for use aboard naval vessels about the dangers of asbestos, which was a component of the boilers
manufactured by the defendant under a contract with the
Navy. See id. at 252, 258. Notably, the Navy required the
use of asbestos in boilers despite its known dangers; dictated the content of the warnings that accompanied the
boilers; and the defendant manufacturer complied with
those requirements. Accordingly, we concluded that the
defendant’s performance of the contract was “sufficient to
connect the plaintiffs’ claims, which fault[ed] warnings
were acting under federal officers.” In re MTBE, 488 F.3d at 130
(citation omitted) (quoting Willingham v. Morgan, 395 U.S. 402, 408
(1969)). Here, the lack of any specificity as to federal direction leaves
us unable to conclude that the leases rise to the level of an unusually
close relationship, as required by the first “acting under” prong.

21a
that were not specified by the Navy, to the warnings that
the Navy specified and with which [the defendant] complied.” Id. at 258 (emphasis added); see also id. (“These
claims undoubtedly ‘relat[e] to’ all warnings, given or not,
that the Navy determined in its discretion.” (alteration in
original)).
In this case, the district court held that even if the
“acting under” and “colorable federal defense” requirements were satisfied, Defendants did not plausibly assert
that the charged conduct was carried out “for or relating
to” the alleged official authority, given the “wide array of
conduct” for which they were sued. See BP P.L.C., 388 F.
Supp. 3d at 568-69. Specifically, the court explained that
Defendants were sued “for their contribution to climate
change by producing, promoting, selling, and concealing
the dangers of fossil fuel products,” and yet failed to show
that a federal officer “controlled their total production
and sales of fossil fuels,” or “directed them to conceal the
hazards of fossil fuels or prohibited them from providing
warnings to consumers.” Id. at 568.
On appeal, Defendants take issue with primarily two
aspects of the district court’s analysis. First, they argue
that the lack of direction as to concealment or warnings is
irrelevant to some of Baltimore’s claims, namely, strict liability for design defect. Second, they contend that a lack
of control as to total production and sales is not dispositive
under Sawyer’s relaxed reading of the third “nexus”
prong.
We disagree with Defendants on both fronts. When
read as a whole, the Complaint clearly seeks to challenge
the promotion and sale of fossil fuel products without
warning and abetted by a sophisticated disinformation
campaign. Of course, there are many references to fossil
fuel production in the Complaint, which spans 132 pages.
But, by and large, these references only serve to tell a

22a
broader story about how the unrestrained production and
use of Defendants’ fossil fuel products contribute to
greenhouse gas pollution. Although this story is necessary to establish the avenue of Baltimore’s climate
change-related injuries, it is not the source of tort liability.
Put differently, Baltimore does not merely allege that Defendants contributed to climate change and its attendant
harms by producing and selling fossil fuel products; it is
the concealment and misrepresentation of the products’
known dangers—and simultaneous promotion of their unrestrained use—that allegedly drove consumption, and
thus greenhouse gas pollution, and thus climate change. 10
The same holds true for Baltimore’s strict-liability design-defect
claim. As Defendants point out, design-defect claims generally focus
on “the product itself,” rather than “the conduct of the manufacturer.” Phipps v. Gen. Motors Corp., 363 A.2d 955, 958 (Md. 1976).
But that is not how Baltimore has framed its claim. Instead, Baltimore relies on the same misleading-marketing and denialist-campaign allegations cited above, averring that Defendants not only
failed to warn the public about the climate effects they knew would
result from the normal use of their products, but also took affirmative
steps to misrepresent the nature of those risks, such as by disseminating information aimed at casting doubt on the integrity of scientific
evidence that was generally accepted at the time and by advancing
their own pseudo-scientific theories. According to Baltimore, these
tactics “prevented reasonable consumers from forming an expectation that fossil fuel products would cause grave climate changes.” J.A.
161; see also Maryland v. Exxon Mobil Corp., 406 F. Supp. 3d 420,
461 (D. Md. 2019) (explaining that Maryland applies a consumer-expectation test in design-defect cases, and only applies the risk-utility
test when the product malfunctions in some way (citing Halliday v.
Sturm, Ruger & Co., 792 A.2d 1145 (Md. 2002)). Under Baltimore’s
own theory of liability, then, its design-defect claim hinges on its ability to demonstrate that Defendants’ promotional efforts deprived reasonable consumers of the ability to form expectations that they would
have otherwise formed. Though we agree with Defendants that Baltimore’s theory appears to be a novel one, at least in the design-defect
context, this may be a function of the unique circumstances that have
10

23a
For this reason, the lack of federal control over the
production and sale of all fossil fuel products is relevant
to the nexus analysis, and the district court did not err in
relying upon that fact in finding that any connection between the charged conduct and the asserted official authority was even further diminished. If production and
sales went to the heart of Baltimore’s claims, we might be
inclined to think otherwise. After all, the alleged government-directed conduct (here, the production and sale of
fossils fuels extracted on the OCS) need only “relate to”
the conduct charged in the Complaint. But given the foregoing allegations, we agree with the district court’s conclusion that the relationship between Baltimore’s claims
and any federal authority over a portion of certain Defendants’ production and sale of fossil fuel products is too
tenuous to support removal under § 1442.
In sum, we hold that the Defendants who participated
in the OCSLA leasing program were not “acting under”
federal officials in extracting and producing fossil fuels on
the OCS, and any connection between such activity and
Baltimore’s claims is too attenuated in any event.
3.
That leaves the 1944 unit agreement governing the operation of the Elk Hills Reserve. Because the agreement
has a complicated history, we begin with its origin and
purpose, followed by a general overview of its terms (or at
least those in dispute). In the end, however, we decline to

allegedly given rise to this litigation. For our purposes, it is sufficient
that Baltimore has limited its design-defect theory to one that turns
on the promotion allegations, which have nothing to do with the action
purportedly taken under federal authority. The viability of such a
theory under Maryland law is a question for the Maryland courts to
decide.

24a
pass on the question of whether it satisfies the “acting under” prong. Like the OCSLA leases, we hold that the
agreement fails to meet the third prong in any event.
a.
The Elk Hills Reserve is located in Kern County, California, and originated from a 1912 Executive Order.
At the turn of the [twentieth] century, Government
lands in the West were rapidly being turned over to
private ownership. At the same time, there was a
growing realization of the importance of oil for the
Navy, which was then changing its ships from coal to
oil burning. In response to arguments that the Government should preserve oil for Naval purposes, President Taft withdrew large portions of land in California and Wyoming from eligibility for private ownership, and in 1912 set aside [the Elk Hills Reserve] by
an Executive Order. . . .
The establishment of the Reserve was expressly made
subject to pre-existing private ownership. There are
approximately 46,000 acres within the Reserve, approximately one-fifth [was] owned by [the Standard
Oil Company of California] and the remainder, approximately four-fifths by Navy. The Standard lands
[were] not in one block, but [were] checker-boarded
throughout the Reserve. The Executive Order establishing the Reserve affected the Government lands in
the field as far as future use and disposition were concerned, but it had no effect on the privately owned
lands, and the owners of those lands were free to use
and dispose of them as they saw fit.

25a
United States v. Standard Oil Co., 545 F.2d 624, 626-27
(9th Cir. 1976). 11
Because production from one part of the Elk Hills Reserve could have reduced the amount of oil underlying another part of the Reserve, the Navy and Standard Oil (a
Chevron predecessor) initially “had an understanding to
the effect that neither would drill wells . . . without six
months’ notice to the other.” Id. at 627; see also id. (explaining that underlying both parties’ lands were “separate accumulations of hydrocarbons,” which, “unlike solid
minerals, do not remain in place but move because of
changes in underground pressure and [thus] move toward
producing wells”). But the tension between Standard’s legitimate goal of producing oil on its land and the Navy’s
duty to conserve its hydrocarbons in the ground until
needed in an emergency became untenable on the brink
of World War II. So the parties began negotiations over
“an exchange, purchase or condemnation of Standard’s
land in the Reserve on the one hand, or their operation as
a unit with the Navy land,” on the other. Id.
These negotiations ultimately resulted in the 1944
Unit Plan Contract (“UPC”). 12 A “unit agreement” is “a
common arrangement in the petroleum industry where
Standard Oil involved a prior dispute over the same agreement,
in which the Ninth Circuit endorsed the foregoing summary agreed
upon by the parties in a pretrial statement.
11

12
The parties entered into an earlier contract in 1942, but it was
voluntarily terminated in 1943 due to doubts expressed by the Attorney General as to its legality. Id. The parties entered into the UPC
in 1944, after Congress passed enabling legislation. See id. The UPC
governed the joint operation and development of three initial “commercially productive zones” underlying the Elk Hills Reserve, two of
which contained oil (the Stevens Zone and Shallow Oil Zone). Only
the latter zone is at issue here, and all of the provisions discussed in
this opinion pertain to that zone.

26a
two or more owners have interests in a common pool,”
which is operated as a “unit.” Id. The parties share production and costs in agreed-upon proportions, and, ordinarily, the objective is “to produce currently, at minimum
expense and pursuant to good engineering practices.” Id.
The UPC involved here, however, was unique in that “its
purpose was not to produce currently, and its effect was
to conserve as much of the hydrocarbons in place as was
feasible until needed for an emergency.” Id. “This required curtailing production of Standard’s hydrocarbons
along with that of Navy, for which Standard would have
to receive compensation.” Id. Accordingly, “in consideration for Standard curtailing its production plus giving up
certain other rights,” id. at 627-28, the UPC gave Standard the right to take specified volumes of oil from certain
zones in the pool—namely, an average of 15,000 barrels
per day, or a lesser amount fixed by the Secretary of the
Navy, with (a) a ceiling of 25,000,000 barrels or one-third
of Standard’s total share, whichever was less, and (b) a
floor of an amount sufficient to cover Standard’s out-ofpocket expenses in maintaining the Reserve in good oilfield condition, see id. at 628; J.A. 245-46, 250-52.
b.
With this background in mind, we turn to the specific
UPC provisions relied upon by Defendants to establish
that one of their predecessors (Standard) “acted under”
the Navy when it engaged in fossil fuel production during
the twentieth century.
In the main, Defendants stress that the UPC gave the
Navy “exclusive control over the exploration, prospecting, development, and operation of the [Elk Hills] Reserve,” and the “full and absolute power to determine . . .
the quantity and rate of production from[] the Reserve.”
Reply Br. 18 (second alteration in original); accord J.A.

27a
249-50. In particular, they note that the UPC “obligated”
Standard “to operate the Reserve in such manner as to
produce ‘not less than 15,000 barrels of oil per day,’ ” and
allowed the Navy to suspend or increase the rate of production in its “discretion,” Reply Br. 18-19 (first quoting
J.A. 250, § 4(b); then citing J.A. 250-51, §§ 4(b), 5(d)(1)).
Baltimore counters that these provisions do not establish that Standard was producing oil at the direction of a
federal officer. According to Baltimore, these provisions
merely required that the pool be maintained in a manner
that would have made it capable of producing at least
15,000 barrels per day until Standard received its share
under the contract. See J.A. 250, § 4(b) (“Until Standard
shall have received . . . its share of production . . . , the
Reserve shall be developed and operated in such manner
and to such extent as will, so far as practicable, permit
production . . . to be maintained at a rate sufficient to produce therefrom not less than 15,000 barrels of oil per day
. . . .”). As a result, Baltimore argues that Standard could
have complied with the contract by producing no oil at all,
unless and until the Navy elected to increase the rate of
production via congressional authorization. 13 And even
then, Baltimore says, the contract did not necessarily
make Standard responsible for production on the Navy’s
13
See generally J.A. 246, recitals § 8 (“[The UPC] does not and cannot, in and of itself, authorize the production of any of Navy’s share
of the oil, . . . as distinct from that portion of Standard’s share hereinafter permitted to be produced and received by Standard under the
terms of [the above-cited provisions]. The production of the remainder of Standard’s share and of all of Navy’s share must, except for the
purpose of protecting, conserving, maintaining, or testing the Reserve, be preceded by and based upon [congressional] authorization
. . . ; and references hereinafter to an authorization or election by
Navy to order the production of any such oil are intended to be limited
to action by the Navy within the terms of any such [authorization].”).

28a
behalf. See generally J.A. 249, § 3(a) (“Navy shall, subject
to the provisions hereof, have the exclusive control over
the exploration, prospecting, development, and operation
of the Reserve, and Navy may, in its discretion, explore,
prospect, develop, and/or operate the Reserve directly
with its own personnel or it may contract for all or any
part of such [activities] with competent and responsible
parties[, including] . . . Standard . . . .” (emphasis added)).
At oral argument, Defendants shifted their focus away
from whether the 15,000-barrels-per-day provision actually required Standard to produce any oil, as they argued
in their briefs. Instead, Defendants pointed to the Naval
Petroleum Reserves Production Act of 1976 (“1976 Act”),
which “authorized and directed” the Secretary of the
Navy to produce the Elk Hills Reserve “at the maximum
efficient rate consistent with sound engineering practices
for a period not to exceed six years,” Pub. L. No. 94-258,
90 Stat. 303, 308; see also supra note 13 (discussing UPC’s
congressional-authorization requirement). Congress authorized this increase in production after determining
that “the Navy’s intent to maintain a petroleum reserve,
in case of national emergency in 1944, was no longer relevant,” Chevron U.S.A., Inc. v. United States, 71 Fed. Cl.
236, 244 (2006), and in response to the 1973 oil crisis, J.A.
214. The 1976 Act also gave the Secretary the authority
“to sell or otherwise dispose of the United States share of
such petroleum produced from” the Elk Hills Reserve.
See 90 Stat. at 308.
Shortly thereafter, in 1977, Congress transferred authority over the Elk Hills Reserve to the Department of
Energy and assigned to it the Navy’s interest in the Reserve as well as the UPC. Chevron, 71 Fed. Cl. at 244-45.
Standard, and later Chevron as a successor, “continued its
interest in the joint operation” of the Reserve until 1997.
J.A. 214.

29a
c.
The parties’ dispute about the UPC and its significance for purposes of federal officer removal thus can be
distilled to two main issues. First, was any oil ever produced from the Elk Hills Reserve at the Navy’s direction?
And second, if so, was it Standard who carried out those
orders?
In light of the 1976 Act, we think the answer to the
first question is yes. But as to the second, we simply have
no idea whether production authorized by Congress was
carried out by Standard. At oral argument, counsel for
Chevron merely stated that it was his “understanding”
that Standard extracted oil on the Navy’s behalf under the
unit agreement, and, more generally, that the government relies upon private companies because it does not
have its own oil and gas engineers or drilling equipment.
And although counsel later submitted a Rule 28(j) Letter
stating that the government had final authority over all
production, “which was carried out by Standard, and later
Chevron,” Appellants’ Letter Suppl. Authorities 1, ECF
No. 133, the letter merely cites the UPC as a whole in support of this assertion. In other words, it does not explain
why Baltimore’s reliance on the operational-control provision cited above is misplaced, see J.A. 249, § 3(a), nor
does it point to any other provision or provisions that support a different reading. 14 Thus, we are left wanting for
pertinent details about Standard’s role in operating the
Elk Hills Reserve and producing oil therefrom on behalf
14
Because Baltimore only claimed that Standard was not responsible for production at oral argument—in response to Defendants’ reliance on the 1976 Act, which Defendants, in turn, did not rely upon in
their briefs on appeal—this issue is not addressed in Defendants’
briefing, either. Nor can we find any relevant explanation in the federal-officer allegations in the Notice of Removal.

30a
of the Navy, which might bear directly upon the “acting
under” analysis. Indeed, if Standard was not responsible
for producing the oil authorized by Congress in 1976, the
upshot is that any extensive government control contemplated by the UPC only affected the parties’ relative
shares and the development of the Reserve, not Standard’s duties with respect to any production carried out for
the Navy’s benefit.
Nevertheless, even if we were to conclude that Standard was responsible for such production under the UPC—
and that this responsibility transformed Standard into a
person “acting under” the Navy for purposes of § 1442—
the production of oil from the Elk Hills Reserve by the
predecessor of one of the twenty-six Defendants, like the
production of fossil fuels on the OCS, is not sufficiently
“related” to Baltimore’s claims. See supra pp. 23-26. Accordingly, the district court was correct in concluding that
the UPC cannot support federal officer removal in this
case.
IV.
For the foregoing reasons, we affirm the district
court’s order granting Baltimore’s motion to remand.
Affirmed.

31a
APPENDIX B
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF MARYLAND

Civil Action No. ELH-18-2357

MAYOR AND CITY COUNCIL OF BALTIMORE,
Plaintiff,
v.
BP P.L.C., et al.,
Defendants

Filed: June 10, 2019

MEMORANDUM OPINION
HOLLANDER, United States District Judge.
In this Memorandum Opinion, the Court determines
whether a suit concerning climate change was properly
removed from a Maryland state court to federal court.
The Mayor and City Council of Baltimore (the “City”)
filed suit in the Circuit Court for Baltimore City against
twenty-six multinational oil and gas companies. See ECF
42 (Complaint). The City alleges that defendants have
substantially contributed to greenhouse gas pollution,
global warming, and climate change by extracting, pro-

32a
ducing, promoting, refining, distributing, and selling fossil fuel products (i.e., coal, oil, and natural gas), while simultaneously deceiving consumers and the public about the
dangers associated with those products. Id. ¶¶ 1-8. As a
result of such conduct, the City claims that it has sustained and will sustain “climate change-related injuries.”
Id. ¶ 102. According to the City, the injuries from
“[a]nthropogenic (human-caused) greenhouse gas pollution,” id. ¶ 3, include a rise in sea level along Maryland’s
coast, as well as an increase in storms, floods, heatwaves,
drought, extreme precipitation, and other conditions. Id.
¶ 8.
The Complaint asserts eight causes of action, all
founded on Maryland law: public nuisance (Count I); private nuisance (Count II); strict liability for failure to warn
(Count III); strict liability for design defect (Count IV);
negligent design defect (Count V); negligent failure to
warn (Count VI); trespass (Count VII); and violations of
the Maryland Consumer Protection Act, Md. Code (2013
Repl. Vol., 2019 Supp.), Com. Law §§ 13-101 to 13-501
(Count VIII). Id. ¶¶ 218-98. The City seeks monetary
damages, civil penalties, and equitable relief. Id.
Two of the defendants, Chevron Corp. and Chevron
U.S.A., Inc. (collectively, “Chevron”), timely removed the
case to this Court. ECF 1 (Notice of Removal). 1 Assert-

Chevron alleged that no other defendants had been served prior
to the removal. ECF 28 (Chevron’s Statement in Response to Standing Order Concerning Removal). The Notice of Removal was timely.
See 28 U.S.C. § 1446(b) (defendant must remove within thirty days
after service). And, because the action was not removed “solely under
section 1441(a),” the consent of the other defendants was not required. See 28 U.S.C. § 1446(b)(2)(A) (“When a civil action is removed
solely under section 1441(a), all defendants who have been properly
1

33a
ing a battery of grounds for removal, Chevron underscores that the case concerns “global emissions” (Id. at 3)
with “uniquely federal interests” (Id. at 6) that implicate
“bedrock federal-state divisions of responsibility[.]” Id. at
3.
The eight grounds for removal are as follows: (1) the
case is removable under 28 U.S.C. § 1441(a) and § 1331,
because the City’s claims are governed by federal common law, not state common law; (2) the action raises disputed and substantial issues of federal law that must be
adjudicated in a federal forum; (3) the City’s claims are
completely preempted by the Clean Air Act (“CAA”), 42
U.S.C. § 7401 et seq., and/or other federal statutes and the
Constitution; (4) this Court has original jurisdiction under
the Outer Continental Shelf Lands Act (“OCSLA”), 43
U.S.C. § 1349(b); (5) removal is authorized under the federal officer removal statute, 28 U.S.C. § 1442(a)(1); (6) this
Court has federal question jurisdiction under 28 U.S.C.
§ 1331 because the City’s claims are based on alleged injuries to and/or conduct on federal enclaves; (7) removal
is authorized under 28 U.S.C. § 1452(a) and 28 U.S.C.
§ 1334(b), because the City’s claims are related to federal
bankruptcy cases; and (8) the City’s claims fall within the
Court’s original admiralty jurisdiction under 28 U.S.C.
§ 1333. ECF 1 at 6-12, ¶¶ 5-12.
Thereafter, the City filed a motion to remand the case
to state court, pursuant to 28 U.S.C. § 1447(c). ECF 111.
The motion is supported by a memorandum of law (ECF
111-1) (collectively, “Remand Motion”). Defendants filed
a joint opposition to the Remand Motion (ECF 124, “Op-

joined and served must join in or consent to the removal of the action.”).

34a
position”), along with three supplements containing numerous exhibits. ECF 125; ECF 126; ECF 127. 2 The City
replied. ECF 133.
Defendants also filed a conditional motion to stay the
execution of any remand order. ECF 161. They ask that,
in the event the Court grants the City’s Remand Motion,
the Court issue an order staying execution of the remand
for thirty days to allow them to appeal the ruling. Id. at
1-2. The City initially opposed that motion (ECF 162), but
subsequently stipulated to the requested stay. ECF 170.
This Court accepted the parties’ stipulation by Consent
Order of April 22, 2019. ECF 171.
No hearing is necessary to resolve the Remand Motion. See Local Rule 105.6. For the reasons that follow, I
conclude that removal was improper. Therefore, I shall
grant the Remand Motion. However, I shall stay execution of the remand for thirty days, in accordance with the
parties’ joint stipulation and the Court’s prior Order.
I. DISCUSSION
A. The Contours of Removal
This matter presents a primer on removal jurisdiction;
defendants rely on the proverbial “laundry list” of
The following defendants did not join in the Opposition to the
City’s Remand Motion: Crown Central Petroleum Corp.; Louisiana
Land & Exploration Co.; Phillips 66 Co.; Marathon Oil Co.; and Marathon Oil Corp. See ECF 124; ECF 42. However, it appears that
three of these defendants were not properly named in the Complaint.
See ECF 14 (Local Rule 103.3 Disclosure Statement by Louisiana
Land and Exploration Co. LLC, stating that defendant Louisiana
Land & Exploration Co. no longer exists); ECF 40 (Local Rule 103.3
Disclosure Statement by Crown Central LLC and Crown Central
New Holdings LLC, stating that defendant Crown Central Petroleum Corp. no longer exists); ECF 108 (Local Rule 103.3 Disclosure
Statement by Phillips 66 does not identify Phillips 66 Co.).
2

35a
grounds for removal. I begin by outlining the general contours of removal jurisdiction and then turn to the specific
bases for removal on which defendants rely.
District courts of the United States are courts of limited jurisdiction and possess only the “power authorized
by Constitution and statute.” Exxon Mobil Corp. v. Allapattah Servs., Inc., 545 U.S. 546, 552 (2005) (citation
omitted); see Home Buyers Warranty Corp. v. Hanna,
750 F.3d 727, 432 (4th Cir. 2014). They “may not exercise
jurisdiction absent a statutory basis . . . .” Exxon Mobil
Corp, 545 U.S. at 552. Indeed, a federal court must presume that a case lies outside its limited jurisdiction unless
and until jurisdiction has been shown to be proper.
United States v. Poole, 531 F.3d 263, 274 (4th Cir. 2008)
(citing Kokkonen v. Guardian Life Ins. Co., 511 U.S. 375,
377 (1994)).
Under § 28 U.S.C. § 1441, the general removal statute,
“any civil action brought in a State court of which the district courts of the United States have original jurisdiction” may be “removed by the defendant or the defendants, to the district court of the United States for the district and division embracing the place where such action
is pending.” Id. § 1441(a). Congress has conferred jurisdiction on the federal courts in several ways. Of relevance
here, to provide a federal forum for plaintiffs who seek to
vindicate federal rights, Congress has conferred on the
district courts original jurisdiction over civil actions that
arise under the Constitution, laws, or treaties of the
United States. See U.S. Const. art. III, § 2 (“The Judicial
Power shall extend to all Cases, in Law and Equity, arising under this Constitution, the Laws of the United
States, and Treaties made . . .”); see also 28 U.S.C. § 1331;

36a
Exxon Mobil Corp., 545 U.S. at 552. This is sometimes
called federal question jurisdiction. 3
The burden of demonstrating jurisdiction and the propriety of removal rests with the removing party. See
McBurney v. Cuccinelli, 616 F.3d 393, 408 (4th Cir. 2010);
Robb Evans & Assocs. v. Holibaugh, 609 F.3d 359, 362
(4th Cir. 2010); Dixon v. Coburg Dairy, Inc., 369 F.3d 811,
816 (4th Cir. 2004) (en banc). Therefore, “[i]f a plaintiff
files suit in state court and the defendant seeks to adjudicate the matter in federal court through removal, it is the
defendant who carries the burden of alleging in his notice
of removal and, if challenged, demonstrating the court’s
jurisdiction over the matter.” Strawn v. AT&T Mobility
LLC, 530 F.3d 293, 296 (4th Cir. 2008). And, if “a case was
not properly removed, because it was not within the original jurisdiction” of the federal court, then “the district
court must remand [the case] to the state court from
In addition, “Congress . . . has granted district courts original jurisdiction in civil actions between citizens of different States, between
U.S. citizens and foreign citizens, or by foreign states against U.S.
citizens,” so long as the amount in controversy exceeds $75,000.
Exxon Mobil Corp., 545 U.S. at 552; see 28 U.S.C. § 1332. Diversity
jurisdiction “requires complete diversity among parties, meaning
that the citizenship of every plaintiff must be different from the citizenship of every defendant.” Cent. W. Va. Energy Co., Inc. v. Mountain State Carbon, LLC, 636 F.3d 101, 103 (4th Cir. 2011) (emphasis
added); see Strawbridge v. Curtiss, 7 U.S. 267 (1806). Under 28
U.S.C. § 1367(a), district courts are also granted “supplemental jurisdiction over all other claims that are so related to claims in the action
within [the courts’] original jurisdiction that they form part of the
same case or controversy under Article III of the United States Constitution.”
Although defendants do not argue otherwise, the Court observes
that removal of this case was not based on diversity jurisdiction. Presumably, this is because BP Products North America Inc. is domiciled
in Maryland. ECF 42, ¶ 20(e); see 28 U.S.C. § 1332; 28 U.S.C.
§ 1441(b).
3

37a
which it was removed.” Franchise Tax Bd. of Cal. v. Constr. Laborers Vacation Trust, 463 U.S. 1, 8 (1983) (citing
28 U.S.C. § 1447(c)).
Courts are required to construe removal statutes narrowly. Shamrock Oil & Gas Corp. v. Sheets, 313 U.S. 100,
108-09 (1941). This is because “the removal of cases from
state to federal court raises significant federalism concerns.” Barbour v. Int’l Union, 640 F.3d 599, 605 (4th Cir.
2011) (en banc), abrogated in part on other grounds by the
Federal Courts Jurisdiction and Venue Clarification Act
of 2011, Pub. L. No. 112-63, 125 Stat. 758 (2011); see also
Mulcahey v. Columbia Organic Chems. Co., 29 F.3d 148,
151 (4th Cir. 1994) (“Because removal jurisdiction raises
significant federalism concerns, [courts] must strictly
construe removal jurisdiction.”) (citing Shamrock, 313
U.S. at 108-09). Thus, “any doubts” about removal must
be “resolved in favor of state court jurisdiction.” Barbour,
640 F.3d at 617; see also Cohn v. Charles, 857 F. Supp. 2d
544, 547 (D. Md. 2012) (“Doubts about the propriety of removal are to be resolved in favor of remanding the case to
state court.”).
Defendants assert a host of grounds for removal; four
of their eight grounds are premised on federal question
jurisdiction under 28 U.S.C. § 1331. These grounds are as
follows: (1) the City’s public nuisance claim is necessarily
governed by federal common law; (2) the City’s claims
raise disputed and substantial issues of federal law; (3) the
City’s claims are completely preempted by the Clean Air
Act, 42 U.S.C. § 7401 et seq., and the foreign affairs doctrine; and (4) the City’s claims are based on conduct or injuries that occurred on federal enclaves. ECF 1, ¶¶ 5-7;
ECF 124 at 8-49. I shall address each of these arguments
in turn and then consider defendants’ alternative bases
for removal.

38a
As alternative grounds, defendants assert that this
Court has original jurisdiction under the OCSLA, 43
U.S.C. § 1349(b); removal is authorized under the federal
officer removal statute, 28 U.S.C. § 1442(a)(1); removal is
authorized under 28 U.S.C. § 1452(a) and 28 U.S.C.
§ 1334(b) because the City’s claims are related to bankruptcy cases; and the City’s claims fall within the Court’s
original admiralty jurisdiction under 28 U.S.C. § 1333.
B. Federal Question Jurisdiction
Article III of the United States Constitution provides:
“The judicial Power shall extend to all Cases, in Law and
Equity, arising under . . . the Laws of the United States.”
U.S. Const. art. III, § 2, cl. 1. Section 1331 of 28 U.S.C.
grants federal district courts “original jurisdiction of all
civil actions arising under the Constitution, laws, or treaties of the United States.” “Article III ‘arising under’ jurisdiction is broader than federal question jurisdiction under [28 U.S.C. § 1331].” Verlinden B.V. v. Cent. Bank of
Nigeria, 461 U.S. 480, 495 (1983). Although Congress has
the power to prescribe the jurisdiction of federal courts
under U.S. Const. art. I, § 8, cl. 9, it “may not expand the
jurisdiction of the federal courts beyond the bounds established by the Constitution.” Verlinden, 461 U.S. at
491.
The “propriety” of removal on the basis of federal
question jurisdiction “depends on whether the claims
‘aris[e] under’ federal law.” Pinney v. Nokia, Inc., 402
F.3d 430, 441 (4th Cir. 2005) (citation omitted). And, when
jurisdiction is based on a claim “arising under the Constitution, treaties or laws of the United States,” the case is
“removable without regard to the citizenship or residence
of the parties.” 28 U.S.C. § 1441(b).
A case “ ‘aris[es] under’ federal law in two ways.”
Gunn v. Minton, 568 U.S. 251, 257 (2013); see Beneficial

39a
Nat’l Bank v. Anderson, 539 U.S. 1, 8 (2003). First, and
most commonly, “a case arises under federal law when
federal law creates the cause of action asserted.” Gunn,
568 U.S. at 257; see also Am. Well Works Co. v. Layne &
Bowler Co., 241 U.S. 257, 260 (1916) (stating that a “suit
arises under the law that creates the cause of action”).
Second, a claim is deemed to arise under federal law for
purposes of § 1331 when, although it finds its origins in
state law, “the plaintiff’s right to relief necessarily depends on resolution of a substantial question of federal
law.” Empire Healthchoice Assurance Inc. v. McVeigh,
547 U.S. 677, 690 (2006); see Franchise Tax Bd., 463 U.S.
at 13.
This latter set of circumstances arises only in a “ ‘special and small category’ of cases.” Gunn, 568 U.S. at 258
(quoting Empire Healthchoice, 547 U.S. at 699). Specifically, jurisdiction exists under this category only when “a
federal issue is: (1) necessarily raised, (2) actually disputed, (3) substantial, and (4) capable of resolution in federal court without disrupting the federal-state balance approved by Congress.” Id.; see Grable & Sons Metal
Prods., Inc. v. Darue Eng’g & Mfg., 545 U.S. 308, 313-14
(2005); Christianson v. Colt Indus. Operating Corp., 486
U.S. 800, 808 (1988); Flying Pigs, LLC v. RRAJ Franchising, LLC, 757 F.3d 177, 181 (4th Cir. 2014).
The “presence or absence of federal question jurisdiction is governed by the ‘well-pleaded complaint rule,’
which provides that federal jurisdiction exists only when
a federal question is presented on the face of the plaintiff’s
properly pleaded complaint.” Rivet v. Regions Bank of
La., 522 U.S. 470, 475 (1998) (citation omitted); see Pressl
v. Appalachian Power Co., 842 F.3d 299, 302 (4th Cir.
2016). This “makes the plaintiff the master of [its] claim,”
because in drafting the complaint, the plaintiff may “avoid
federal jurisdiction by exclusive reliance on state law.”

40a
Caterpillar Inc. v. Williams, 482 U.S. 386, 392 (1987); see
Pinney, 402 F.3d at 442.
However, even when a well-pleaded complaint sets
forth a state law claim, there are instances when federal
law “is a necessary element” of the claim. Christianson,
486 U.S. at 808. Under certain circumstances, such a case
may be removed to federal court. The Pinney Court explained, 402 F.3d at 442 (internal citation omitted):
Under the substantial federal question doctrine, ‘a defendant seeking to remove a case in which state law
creates the plaintiff’s cause of action must establish
two elements: (1) that the plaintiff’s right to relief necessarily depends on a question of federal law, and (2)
that the question of federal law is substantial.’ If the
defendant fails to establish either of these elements,
the claim does not arise under federal law pursuant to
the substantial federal question doctrine, and removal
cannot be justified under this doctrine.
(internal citations omitted).
A case may also be removed from state court to federal
court based on the doctrine of complete preemption. The
complete preemption doctrine is a “corollary of the wellpleaded complaint rule.” Metro. Life Ins. Co. v. Taylor,
481 U.S. 58, 63 (1987); see In re Blackwater Sec. Consulting, LLC, 460 F.3d 576, 584 (4th Cir. 2006). The Supreme
Court has explained: “When [a] federal statute completely pre-empts [a] state-law cause of action, a claim
which comes within the scope of that cause of action, even
if pleaded in terms of state law, is in reality based on federal law.” Beneficial, 539 U.S. at 8 (emphasis added).
Therefore, federal question jurisdiction is satisfied “when
a federal statute wholly displaces the state-law cause of
action through complete pre-emption.” Id. (emphasis
added); see also Vaden v. Discover Bank, 556 U.S. 49, 61

41a
(2009); Aetna Health Inc. v. Davila, 542 U.S. 200, 207-08
(2004).
Complete preemption is a jurisdictional doctrine that
“ ‘converts an ordinary state common-law complaint into
one stating a federal claim for purposes of the wellpleaded
complaint rule.’ ” Caterpillar Inc., 482 U.S. at 393 (quoting
Metro. Life Ins., 481 U.S. at 65); see Pinney, 402 F.3d at
449. But, to remove an action on the basis of complete
preemption, a defendant must show that Congress intended for federal law to provide the “exclusive cause of
action” for the claim asserted. Beneficial, 539 U.S. at 9;
see also Barbour, 640 F.3d at 631.
Moreover, it is “settled law that a case may not be removed to federal court on the basis of a federal defense,
including the defense of pre-emption, even if the defense
is anticipated in the plaintiff’s complaint, and even if both
parties concede that the federal defense is the only question truly at issue.” Caterpillar Inc., 482 U.S. at 393 (emphasis added); see Vaden, 556 U.S. at 60. Therefore, in
examining the well pleaded allegations in the complaint
for purposes of removal, the court must “ignore potential
defenses.” Beneficial, 539 U.S. at 6. Put another way,
when preemption is a defense, it “does not appear on the
face of a well-pleaded complaint, and, therefore, does not
authorize removal to federal court.” Metro. Life Ins., 481
U.S. at 63; see Pinney, 402 F.3d at 449.
Defendants seem to conflate complete preemption
with the defense of ordinary preemption. See Caterpillar
Inc., 482 U.S. at 392. The “existence of a federal defense
normally does not create statutory ‘arising under’ jurisdiction, and ‘a defendant [generally] may not remove a
case to federal court unless the plaintiff’s complaint establishes that the case ‘arises under’ federal law.’ ”
Davila, 542 U.S. at 207 (internal citations omitted).

42a
“Federal law may preempt state law under the Supremacy Clause in three ways―by ‘express preemption,’
by ‘field preemption,’ or by ‘conflict preemption.’ ” Anderson v. Sara Lee Corp., 508 F.3d 181, 191 (4th Cir. 2007)
(citation omitted); see also Decohen v. Capital One, N.A.,
703 F.3d 216, 223 (4th Cir. 2012). These three types of
preemption, however, are forms of “ordinary preemption”
that serve only as federal defenses to a state law claim.
Lontz v. Tharp, 413 F.3d 435, 441 (4th Cir. 2005); see
Wurtz v. Rawlings Co., LLC, 761 F.3d 232, 238 (2d Cir.
2014). As one federal court recently explained: “The doctrine of complete preemption should not be confused with
ordinary preemption, which occurs when there is the defense of ‘express preemption,’ ‘conflict preemption,’ or
‘field preemption’ to state law claims.” Meade v. Avant of
Colorado, LLC, 307 F. Supp. 3d 1134, 1140 (D. Colo. 2018).
Unlike the doctrine of complete preemption, these forms
of preemption do not appear on the face of a well-pleaded
complaint and therefore they do not support removal.
Lontz, 413 F.3d at 440; Wurtz, 761 F.3d at 238.
Ordinary preemption “regulates the interplay between federal and state laws when they conflict or appear
to conflict . . . .” Decohen, 703 F.3d at 222. “[S]tate law is
naturally preempted to the extent of any conflict with a
federal statute,” Crosby v. Nat’l Foreign Trade Council,
530 U.S. 363, 372 (2000), because the Supremacy Clause
of the Constitution, U.S. Const. art. VI, cl. 2, provides that
a federal enactment is superior to a state law. As a result,
pursuant to the Supremacy Clause, “[w]here state and
federal law ‘directly conflict,’ state law must give way.”
PLIVA, Inc. v. Mensing, 564 U.S. 604, 617 (2011) (citation
omitted); see also Merck Sharp & Dohme Corp. v. Albrecht, ___U.S. ___, 2019 WL 2166393, at *8 (May 20,
2019) (discussing impossibility or conflict preemption, and
reiterating that “ ‘state laws that conflict with federal law

43a
are without effect,’ ” but noting that the “ ‘possibility of impossibility [is] not enough’ ”) (citations omitted); Mutual
Pharm. Co., Inc. v. Bartlett, 570 U.S. 472, 480 (2013). In
Drager v. PLIVA USA, Inc., 741 F.3d 470 (4th Cir. 2014),
the Fourth Circuit stated: “The Supreme Court has held
that state and federal law conflict when it is impossible for
a private party to simultaneously comply with both state
and federal requirements.[] In such circumstances, the
state law is preempted and without effect.” Id. at 475. 4
“Federal preemption of state law under the Supremacy Clause—including state causes of action—is ‘fundamentally . . . a question of congressional intent.’ ” Cox v.
Duke Energy, Inc., 876 F.3d 625, 635 (4th Cir. 2017) (quoting English v. Gen. Elec. Co., 496 U.S. 72, 79 (1990)); see
also Beneficial, 539 U.S. at 9. Congress manifests its intent in three ways: (1) when Congress explicitly defines
the extent to which its enactment preempts state law (express preemption); (2) when state law “regulates conduct
in a field that Congress intended the Federal Government
to occupy exclusively” (field preemption); and (3) when
state law “actually conflicts with federal law” (conflict or
impossibility preemption). English, 496 U.S. at 78-79.
1. Federal Common Law
Defendants first argue that federal question jurisdiction exists because the City’s public nuisance claim implicates “uniquely federal interests” and thus “is governed
by federal common law.” ECF 124 at 9-11. According to
defendants, the federal government has a unique interest
both in promoting fossil fuel production and in crafting
4
In his concurrence in Albrecht, Justice Thomas observed that a
defense based on conflict preemption fails as a matter of law in the
absence of a statute, regulations, or other agency action “with the
force of law that would have prohibited [the defendant] from complying with its alleged state-law duties. . . .” 2019 WL 2166393, at *12.

44a
multilateral agreements with foreign nations to address
global warming. Id. at 16. Therefore, they insist that federal common law supports removal. Id.
The City counters that this argument is no more than
an ordinary preemption defense. ECF 111-1 at 9. In effect, argues the City, defendants contend that federal
common law applies to any cause of action “touching on
climate change, such that state law claims under any theory have been obliterated . . . .” ECF 111-1 at 8. In the
City’s view, federal common law does not provide a proper
basis for removal. Id. I agree.
It is true that federal question jurisdiction exists over
claims “founded upon” federal common law. Illinois v.
City of Milwaukee, 406 U.S. 91, 100 (1972) (stating that 28
U.S.C. § 1331 “will support claims founded upon federal
common law as well as those of a statutory origin”). It is
also true, however, that the presence of federal question
jurisdiction is governed by the well-pleaded complaint
rule. Rivet, 522 U.S. at 475. The well-pleaded complaint
rule is plainly not satisfied here because the City does not
plead any claims under federal law. See ECF 42.
Defendants’ assertion that the City’s public nuisance
claim under Maryland law is in fact “governed by federal
common law” is a cleverly veiled preemption argument.
See Boyle v. United Tech. Corp., 487 U.S. 500, 504 (1988)
(finding that a state law claim against a federal government contractor that involved “uniquely federal interests”
was governed exclusively by federal common law and,
thus, state law was preempted); Int’l Paper Co. v. Ouellette, 479 U.S. 481, 488 (1987) (stating that if a case “should
be resolved by reference to federal common law . . . state
common law [is] preempted”); see also Merkel v. Fed.
Exp. Corp., 886 F. Supp. 561, 564-65 (N.D. Miss. 1995)
(stating that if “plaintiff’s claims are governed by federal
common law,” as defendant argued to support removal,

45a
“then [defendant] is entitled to assert the defense of
preemption against the plaintiff’s state law claims”). Unfortunately for defendants, ordinary preemption does not
allow the Court to treat the City’s public nuisance claim
as if it had been pleaded under federal law for jurisdictional purposes. See Franchise Tax Bd., 463 U.S. at 14.
As indicated, unlike ordinary preemption, complete
preemption does “ ‘convert[] an ordinary state commonlaw complaint into one stating a federal claim for purposes
of the well-pleaded complaint rule.’ ” Caterpillar Inc., 482
U.S. at 393 (quoting Metro. Life Ins., 481 U.S. at 65); see
Lontz, 413 F.3d at 439 (noting that the complete preemption doctrine is the only “exception” to the well-pleaded
complaint rule); Goepel v. Nat’l Postal Mail Handlers
Union, 36 F.3d 306, 311-12 (3d Cir. 1994) (“[T]he only
state claims that are ‘really’ federal claims and thus removable to federal court are those that are preempted
completely by federal law.”) (citations omitted); see also
Hannibal v. Fed. Exp. Corp., 266 F. Supp. 2d 466, 469
(E.D. Va. 2003) (observing that, where the defendant argued that removal was proper because the plaintiff’s contract claim was governed exclusively by federal common
law, “the Defendant is attempting to argue that federal
common law completely preempts the Plaintiff’s state
breach of contract claim”). But, defendants do not argue
that the City’s public nuisance claim is completely
preempted by federal common law. Rather, they contend
only that the City’s claims are completely preempted by
the Clean Air Act and the foreign affairs doctrine. See
ECF 124 at 43-48.
As I see it, defendants’ assertion that federal common
law supports removal is without merit, even if construed
as a complete preemption argument.
Two district judges in the Northern District of California considered the matter of removal in cases similar

46a
to the one sub judice. They reached opposing conclusions
as to removal.
In County of San Mateo v. Chevron Corp., 294 F.
Supp. 3d 934 (N.D. Cal. 2018), plaintiffs lodged tort claims
against fossil fuel producers for injuries stemming from
climate change. Id. at 937. Judge Chhabria expressly determined that “federal common law does not govern plaintiffs’ claims” and thus the cases “should not have been removed to federal court on the basis of federal common
law . . . .” Id. He considered almost every ground for
removal that has been asserted here, and rejected each
one. He concluded that removal was not warranted under
the doctrine of complete preemption, id., or on the basis
of Grable jurisdiction, id. at 938, or under the Outer Continental Shelf Lands Act, id., or because two of the defendants had earlier bankruptcy proceedings. Id. at 939.
An appeal is pending. See County of Marin v. Chevron
Corp., Appeal No. 18-15503 (9th Cir. Mar. 27, 2018).
Conversely, in California v. BP P.L.C., Civ. No.
WHA-16-6011, 2018 WL 1064293 (N.D. Cal. Feb. 27,
2018), appeal docketed sub. nom., City of Oakland v. BP,
P.L.C., No. 18-16663 (9th Cir. Sept. 4, 2018), Judge Alsup
ruled in favor of removal. I pause to review that opinion
and to elucidate my point of disagreement.
The State of California and the cities of Oakland and
San Francisco asserted public nuisance claims against energy producers—many of whom are defendants in this action—for injuries stemming from climate change. Id. at
*1. The plaintiffs alleged that the defendants produced
and sold fossil fuels while simultaneously deceiving the
public regarding the dangers of global warming and the
benefits of fossil fuels. Id. at *1, 4. After the defendants
removed the action to federal court, the plaintiffs moved
to remand. Id. Although the plaintiffs’ public nuisance
claims were pleaded under California law, the court found

47a
that federal question jurisdiction existed because the
claims were “necessarily governed by federal common
law.” Id. at *2.
The court reasoned that “a uniform standard of decision is necessary to deal with the issues raised” in the
suits, in light of the “worldwide predicament . . . .” Id. at
*3. The court explained, id.: “A patchwork of fifty different answers to the same fundamental global issue would
be unworkable.” Further, the court observed that the
plaintiffs’ claims “depend on a global complex of geophysical cause and effect involving all nations of the planets,”
and that “the transboundary problem of global warming
raises exactly the sort of federal interests that necessitate
a uniform solution.” Id. at *3, 5. Accordingly, the court
denied the plaintiffs’ motion to remand. Id. at *5.
The court’s reasoning was well stated and presents an
appealing logic. Nevertheless, the court did not find that
the plaintiffs’ state law claims fell within either of the
carefully delineated exceptions to the well-pleaded complaint rule—i.e., that they were completely preempted by
federal law or necessarily raised substantial, disputed issues of federal law. See Gunn, 568 U.S. at 257-58; Caterpillar Inc., 482 U.S. at 393. Instead, the court looked beyond the face of the plaintiffs’ well-pleaded complaint and
authorized removal because it found that the plaintiffs’
public nuisance claims were “governed by federal common law.” BP, 2018 WL 1064293, at *5. But, the ruling is
at odds with the firmly established principle that ordinary
preemption does not give rise to federal question jurisdiction. See Caterpillar Inc., 482 U.S. at 393; Marcus v.
AT&T Corp., 138 F.3d 46, 53-54 (2d Cir. 1998) (rejecting
the defendants’ argument that federal common law provided a basis for removal of plaintiff’s state law claims
where federal common law did not completely preempt

48a
plaintiff’s claims); Hannibal, 266 F. Supp. 2d at 469 (holding that federal common law did not support removal
where it did not completely preempt the plaintiff’s state
law claim).
Indeed, the ruling has been harshly criticized by at
least one law professor. See Gil Seinfeld, Climate Change
Litigation in the Federal Courts: Jurisdictional Lessons
from California v. BP, 117 Mich. L. Rev. Online 25, 32-35
(2018) (asserting that the decision “disregards” and
“transgresses the venerable rule that the plaintiff is the
master of her complaint,” including whether “to eschew
federal claims in favor of ones grounded in state law
alone”; stating that the case is “best understood as a complete preemption case” because that is the “only doctrine
that is . . . capable of justifying the holding”; observing
that the district court’s application of the preemption doctrine was “unorthodox,” as congressional intent was “out
of the picture”; and stating that the ruling “is out of step
with prevailing doctrine”).
Defendants also rely on City of New York v. BP
P.L.C., 325 F. Supp. 3d 466 (S.D.N.Y. 2018), appeal docketed, No. 18-2188 (2d Cir. July 26, 2018), to support their
argument that federal common law provides an independent basis for removal. There, the plaintiffs brought claims
for nuisance and trespass under state law against oil companies for producing and selling fossil fuel products that
contributed to global warming. Id. at 468. In their motion
to dismiss the complaint, the defendants argued that the
plaintiffs’ claims were governed by federal common law
rather than state law. Id. at 470. After concluding that
the plaintiffs’ claims were “ultimately based on the ‘transboundary’ emission of greenhouse gases,” the court
agreed. Id. at 472 (citing BP, 2018 WL 1064293, at *3).
Significantly, however, the court did not consider whether

49a
this finding conferred federal question jurisdiction because the plaintiffs originally filed their complaint in federal court based on diversity jurisdiction. See id. Accordingly, this case is of no help to defendants here, at the
threshold jurisdictional stage.
In sum, defendants have framed their argument to allege that federal common law governs the City’s public
nuisance claim. In actuality, however, they present a
veiled complete preemption argument. As noted, complete preemption occurs only when Congress intended for
federal law to provide the “exclusive cause of action” for
the claim asserted. Beneficial, 539 U.S. at 9; see also Barbour, 640 F.3d at 631. Defendants have not shown that
any federal common law claim for public nuisance is available to the City here, and case law suggests that any such
federal common law claim has been displaced by the Clean
Air Act. See Am. Elec. Power Co. v. Connecticut (“AEP”),
564 U.S. 410, 424 (2011) (holding that the CAA displaced
plaintiffs’ federal common law claim for public nuisance
against power plants seeking abatement of their carbon
dioxide emissions); Native Village of Kivalina v. Exxonmobil Corp., 696 F.3d 849, 857-58 (9th Cir. 2012) (holding that the CAA displaced the plaintiffs’ federal common
law claim for public nuisance seeking damages for past
greenhouse gas emissions).
It may be true that the City’s public nuisance claim is
not viable under Maryland law. But, this Court need
not—and, indeed, cannot—make that determination. The
well-pleaded complaint rule confines the Court’s inquiry
to the face of the Complaint and demands the conclusion
that no federal question jurisdiction exists over the City’s
public nuisance claim, which is founded on Maryland law.
See Caterpillar Inc., 482 U.S. at 392. Authorizing removal
on the basis of a preemption defense hijacks this rule and,
in turn, enhances federal judicial power at the expense of

50a
plaintiffs and state courts. In the absence of any controlling authority, I decline to endorse such an extension of
removal jurisdiction.
2. Disputed, Substantial Federal Interests
Defendants next assert that, even if removal is not appropriate on the basis of federal common law, removal is
nonetheless proper because the City’s claims raise substantial and disputed federal issues. ECF 124 at 27. As
noted, there is a “slim category” of cases in which federal
question jurisdiction exists even though the claim “finds
its origins in state rather than federal law.” Gunn, 568
U.S. at 258. A state law claim falls within this category of
jurisdiction, often referred to as Grable jurisdiction because of the Supreme Court’s seminal opinion on the topic
in Grable & Sons Metal Prods., Inc. v. Darue Eng’g &
Mfg., 545 U.S. 308 (2005), only when four requirements
are satisfied. “That is, federal jurisdiction over a state law
claim will lie if a federal issue is: (1) necessarily raised, (2)
actually disputed, (3) substantial, and (4) capable of resolution in federal court without disrupting the federal-state
balance approved by Congress.” Id.; see Grable, 545 U.S.
at 313-14. The Supreme Court has emphasized that
courts are to be cautious in exercising jurisdiction of this
type because it lies at “the outer reaches of § 1331.” Merrell Dow Pharm. Inc. v. Thompson, 478 U.S. 804, 810
(1986).
Defendants contend that Grable jurisdiction exists because the City’s claims raise a host of federal issues. ECF
124 at 28-39. For example, they assert that the City’s
claims “intrude upon both foreign policy and carefully balanced regulatory considerations at the national level, including the foreign affairs doctrine.” ECF 1 at 21-22, ¶ 34.
Further, they assert that the City’s claims “have a significant impact on foreign affairs,” “require federal-law-

51a
based cost-benefit analyses,” “amount to a collateral attack on federal regulatory oversight of energy and the environment,” “implicate federal issues related to the navigable waters of the United States,” and “implicate federal
duties to disclose.” ECF 124 at 28-39. Accordingly, defendants argue that Grable jurisdiction supports removal.
Id.
I begin by considering whether any of these issues are
“necessarily raised” by the City’s claims, as required for
Grable jurisdiction. See Gunn, 568 U.S. at 258; Grable,
545 U.S. at 314. “A federal question is ‘necessarily raised’
for purposes of § 1331 only if it is a ‘necessary element of
one of the well-pleaded state claims.’ ” Burrell v. Bayer
Corp., 918 F.3d 372, 381 (4th Cir. 2019) (quoting Franchise Tax Bd., 463 U.S. at 13). It is not enough that “federal law becomes relevant only by way of a defense to an
obligation created entirely by state law.” Franchise Tax
Bd., 463 U.S. at 13. Rather, “a plaintiff’s right to relief for
a given claim necessarily depends on a question of federal
law only when every legal theory supporting the claim requires the resolution of a federal issue.” Flying Pigs,
LLC, 757 F.3d at 182 (quoting Dixon, 369 F.3d at 816).
Defendants first argue that the City’s claims have a
“significant impact” on foreign affairs. ECF 124 at 28.
They assert that addressing climate change has been the
subject of international negotiations for decades and that
the City’s claims “seek to supplant these international negotiations and Congressional and Executive branch decisions, using the ill-suited tools of Maryland law and private state-court litigation.” Id. at 30. Thus, according to
defendants, the City’s claims raise substantial federal issues and removal is proper. Id. at 28.
Climate change is certainly a matter of serious national and international concern. But, defendants do not
actually identify any foreign policy that is implicated by

52a
the City’s claims, much less one that is necessarily raised.
See ECF 124 at 31. They merely point out that climate
change “has been the subject of international negotiations
for decades,” as most recently evidenced by the adoption
of the Paris Agreement in 2016. Id. at 29, 31 (emphasis
added). Putting aside the fact that President Trump has
announced his intention to withdraw the United States
from the Paris Agreement, defendants’ generalized references to foreign policy wholly fail to demonstrate that a
federal question is “essential to resolving” the City’s state
law claims. Burrell, 918 F.3d at 383; see also President
Trump Announces U.S. Withdrawal from the Paris Climate Accord, WhiteHouse.gov (June 1, 2017), https://
www.whitehouse.gov/articles/president-trumpannounces-u-s-withdrawal-paris-climate-accord/.
Defendants’ next argument for Grable jurisdiction is
slightly more specific, but nonetheless misses the mark.
They assert that the City’s nuisance claims require the
same cost-benefit analysis of fossil fuels that federal agencies conduct and, thus, that adjudicating these claims will
require a court to interpret various federal regulations.
ECF 124 at 34. Further, defendants contend that, because the City’s nuisance claims seek a different balancing
of social harms and benefits than that struck by Congress,
they “amount to a collateral attack on federal regulatory
oversight of energy and the environment.” Id. at 35.
The City’s nuisance claims are based on defendants’
extraction, production, promotion, and sale of fossil fuel
products without warning consumers and the public of
their known risks. See ECF 42, ¶¶ 218-36. The City does
not rely on any federal statutes or regulations in asserting
its nuisance claims; in fact, it nowhere even alleges that
defendants violated any federal statutes or regulations.
Rather, it relies exclusively on state nuisance law, which
prohibits “substantial and unreasonable” interferences

53a
with the use and enjoyment of property. Washington
Suburban Sanitary Comm’n v. CAE-Link Corp., 330 Md.
115, 125, 622 A.2d 745, 750 (1993); see also Burley v. City
of Annapolis, 182 Md. 307, 312, 34 A.2d 603, 605 (1943)
(stating that a public nuisance is one that “ha[s] a common
effect and produce[s] a common damage”). Although federal laws and regulations governing energy production
and air pollution may supply potential defenses, federal
law is plainly not an element of the City’s state law nuisance claims.
Moreover, the City does not seek to modify any regulations, laws, or treaties, or to establish national or global
standards for greenhouse gas emissions. Rather, as the
City observes, it seeks damages and abatement of the nuisance within Baltimore. ECF 111-1 at 32 (citing ECF 42,
¶¶ 12, 228). 5
Nor is removal proper because the City’s claims
amount to a “collateral attack on the federal regulatory
scheme.” ECF 124 at 35. Indeed, defendants do not identify any regulation or statute that is actually attacked by
the City’s claims. Rather, defendants make only vague
references to a “comprehensive regulatory scheme.” Id.
The mere existence of a federal regulatory regime, however, does not confer federal question jurisdiction over a
state cause of action. See Pinney, 402 F.3d at 449 (finding
that a “connection between the federal scheme regulating
wireless telecommunications and the [plaintiffs’] state
claims” was not enough to establish federal question jurisdiction).

5
The City asserts in its Remand Motion that it does not seek to
enjoin any party. ECF 111-1 at 32. But, in its Complaint it does seek
to “enjoin” defendants from “creating future common-law nuisances.”
ECF 42, ¶ 228.

54a
In addition, defendants contend that the City’s public
nuisance claim “implicate[s] federal issues related to the
navigable waters of the United States.” ECF 124 at 37.
They assert that a necessary element of the City’s theory
of causation is the rising sea levels and that, to assess
whether defendants’ conduct is the proximate cause of the
sea level rise, a court will have to evaluate the adequacy
of the federal infrastructure in place to protect navigable
waters. Id. Further, defendants argue that the equitable
relief sought by the City will require approval of the U.S.
Army Corps of Engineers (“Army Corps”) and will require a court to interpret an extensive web of regulations
issued by the Army Corps governing the construction of
structures on navigable waters. Id. at 35.
The argument, although creative, would lead the court
into unchartered waters. The Complaint does not challenge the adequacy of any federal action taken over navigable waters, and the requested relief nowhere mentions
the construction or modification of any infrastructure on
navigable waters. See ECF 42, ¶¶ 218-28. That the City’s
hypothetical remedy might include some construction of
infrastructure on navigable waters, and thus require the
approval of the Army Corps, does not mean that an issue
of federal law is necessarily raised by the City’s claims.
See K2 Am. Corp. v. Roland Oil & Gas, LLC, 653 F.3d
1024, 1032 (9th Cir. 2011) (stating that, where the plaintiff
brought an action seeking ownership of an oil and gas
lease, “[t]he mere fact that the Secretary of the Interior
must approve oil and gas leases does not raise a federal
question”).
Finally, defendants assert that the City’s claims “implicate” federal duties to disclose because their alleged deception of federal regulators is “central to [the City’s] al-

55a
legations.” ECF 124 at 39. And, because federal law governs claims of fraud on federal agencies, defendants argue
that the City’s claims “give rise to federal questions.” Id.
This argument rests on a mischaracterization of the
City’s claims. The Complaint does not allege that defendants violated any duties to disclose imposed by federal
law. Rather, it alleges that defendants breached various
duties under state law by, inter alia, failing to warn consumers, retailers, regulators, public officials, and the City
of the risks posed by their fossil fuel products. See, e.g.,
ECF 42, ¶¶ 221-22, 241, 259. These duties, imposed by
state law, exist separate and apart from any duties to disclose imposed by federal law. See, e.g., Gourdine v. Crews,
405 Md. 722, 738-54, 955 A.2d 769, 779-89 (2008) (describing duty in failure to warn cases); Owens-Illinois, Inc. v.
Zenobia, 325 Md. 420, 446-48, 601 A.2d 633, 645-47 (1992).
Thus, I reject defendants’ attempt to inject a federal issue
into the City’s state law public nuisance claim where one
simply does not exist.
To be sure, there are federal interests in addressing
climate change. Defendants have failed to establish, however, that a federal issue is a “necessary element” of the
City’s state law claims. Franchise Tax Bd., 463 U.S. at
13. Accordingly, even without considering the remaining
requirements for Grable jurisdiction, I reject defendants’
assertion that this action falls within the “special and
small category” of cases in which federal question jurisdiction exists over a state law claim. Empire Healthchoice, 547 U.S. at 699.
3. Complete Preemption
Defendants contend that removal is proper because
the City’s claims are completely preempted by both the
foreign affairs doctrine and the Clean Air Act. ECF 124
at 43-44. The Court has previously addressed preemption

56a
principles. As noted, federal question jurisdiction exists
“when a federal statute wholly displaces the state-law
cause of action through complete pre-emption.[]” Beneficial, 539 U.S. at 8.
To remove an action on the basis of complete preemption, a defendant must show that Congress intended for
federal law to provide the “exclusive cause of action” for
the claim asserted. Id. at 9; see also Barbour, 640 F.3d at
631. The Fourth Circuit recognizes a presumption
against complete preemption that may only be rebutted in
the rare circumstances where “federal law ‘displace[s] entirely any state cause of action.’ ” Lontz, 413 F.3d at 440
(quoting Franchise Tax Bd., 463 U.S. at 23).
Complete preemption is rare. To my knowledge, the
Supreme Court has, in fact, found complete preemption in
regard to only three statutes. See Beneficial, 539 U.S. at
10-11 (National Bank Act); Metro. Life Ins., 481 U.S. at
66-67 (ERISA § 502(a)); Avco Corp. v. Aero Lodge No.
735, Int’l Ass’n of Machinists, 390 U.S. 557, 560 (1968)
(Labor Management Relations Act § 301). This is unsurprising because the doctrine represents a significant departure from the general rule that the plaintiff is “the
master” of its claim, and it “may avoid federal jurisdiction
by exclusive reliance on state law.” Caterpillar Inc., 482
U.S. at 392; see also Lontz, 413 F.3d at 441 (noting that
complete preemption “undermines the plaintiff’s traditional ability to plead under the law of his choosing”).
Defendants first argue that the City’s claims are completely preempted by the foreign affairs doctrine, because
“litigating in state court the inherently transnational activity challenged by the Complaint would inevitably intrude on the foreign affairs power of the federal government.” ECF 124 at 44. I disagree.
The federal government has the exclusive authority to
act on matters of foreign policy. Crosby, 530 U.S. at 380;

57a
United States v. Pink, 315 U.S. 203, 233 (1942). Accordingly, state laws that conflict with the federal government’s foreign policy are preempted. In Am. Ins. Ass’n
v. Garamendi, 539 U.S. 396 (2003), the Court said: “There
is, of course, no question that at some point an exercise of
state power that touches on foreign relations must yield
to the National Government’s policy, given the ‘concern
for uniformity in this country’s dealings with foreign nations’ that animated the Constitution’s allocation of the
foreign relations power to the National Government in the
first place.” Id. at 413 (quoting Banco Nacional de Cuba
v. Sabbatino, 376 U.S. 398, 427, n.25 (1964)); see Crosby,
530 U.S. at 380; Gingery v. City of Glendale, 831 F.3d
1222, 1228 (9th Cir. 2016).
But, defendants’ reliance on this principle, often referred to as the “foreign affairs doctrine,” Gingery, 831
F.3d at 1228, is inapposite in the complete preemption
context. As indicated, complete preemption occurs only
when Congress intended for federal law to provide the
“exclusive cause of action” for the claim asserted. Beneficial, 539 U.S. at 9; see also Barbour, 640 F.3d at 631. That
does not exist here. That is, there is no congressional intent regarding the preemptive force of the judiciallycrafted foreign affairs doctrine, and the doctrine obviously does not supply any substitute causes of action.
Therefore, I am not convinced by defendants’ argument
that the City’s claims are completely preempted by the
foreign affairs doctrine.
Defendants also assert that the City’s claims are completely preempted by the Clean Air Act. ECF 124 at 4448. They contend that the Clean Air Act provides the exclusive cause of action for regulating nationwide emissions and that permitting the City’s state law claims
against out-of-state sources would pose an obstacle to the
objectives of Congress. Id.

58a
The CAA was enacted in 1963. Clean Air Act, Pub. L.
No. 88-206, 77 Stat. 392-401 (1963). Among other purposes, the CAA aims “to protect and enhance the quality
of the Nation’s air resources so as to promote the public
health and welfare and the productive capacity of its population[.]” 42 U.S.C. § 7401(b)(1). It is an expansive statute separated into six Titles. It addresses pollution from
stationary sources (Title I, 42 U.S.C. §§ 7401-7431, 74707479, 7491-7492, 7501-7515); pollution from moving
sources (Title II, 42 U.S.C. §§ 7521-7554, 7571-7574, 75817590); noise pollution and acid rain control (Title IV, 42
U.S.C. §§ 7641-7642 and 7651-7651o); and stratospheric
ozone protection (Title VI, 42 U.S.C. §§ 7671-7671q). Title
III contains general provisions, including definitions, citizen suits, and other administrative matters, and Title V
governs permits.
It is true, as defendants point out, that the Clean Air
Act provides for private enforcement. Specifically, it creates a federal private right of action “against any person
. . . who is alleged to have violated . . . or to be in violation
of (A) an emission standard or limitation under this chapter or (B) an order issued by the Administrator or a State
with respect to such a standard or limitation.” 42 U.S.C.
§ 7604(a)(1). The CAA also creates a federal private right
of action against the Environmental Protection Agency
“where there is alleged a failure . . . to perform any act or
duty under this chapter which is not discretionary.” 42
U.S.C. § 7604(a)(2).
Fatal to defendants’ argument, however, is the absence of any indication that Congress intended for these
causes of action in the CAA to be the exclusive remedy for
injuries stemming from air pollution. See Beneficial, 539
U.S. at 9 (stating that complete preemption occurs “[o]nly
if Congress intended [the statute] to provide the exclusive
cause of action”). To the contrary, the CAA contains a

59a
savings clause that specifically preserves other causes of
action. That provision states, in relevant part, 42 U.S.C.
§ 7604(e):
Nothing in this section shall restrict any right which
any person (or class of persons) may have under any
statute or common law to seek enforcement of any
emission standard or limitation or to seek any other
relief (including relief against the Administrator or a
State agency). Nothing in this section or in any other
law of the United States shall be construed to prohibit,
exclude, or restrict any State, local, or interstate authority from—
(1) bringing any enforcement action or obtaining any
judicial remedy or sanction in any State or local court,
or
(2) bringing any administrative enforcement action or
obtaining any administrative remedy or sanction in
any State or local administrative agency, department
or instrumentality,
against the United States, any department, agency, or
instrumentality thereof, or any officer, agent, or employee thereof under State or local law respecting control and abatement of air pollution.
The CAA also includes the following provision regarding state regulation of hazardous air pollutants, 42 U.S.C.
§ 7412(r)(11):
Nothing in this subsection shall preclude, deny or limit
any right of a State or political subdivision thereof to
adopt or enforce any regulation, requirement, limitation or standard (including any procedural requirement) that is more stringent than a regulation, requirement, limitation or standard in effect under this

60a
subsection or that applies to a substance not subject to
this subsection.
The language of these provisions unequivocally
demonstrates that “Congress did not intend the federal
causes of action under [the Clean Air Act] ‘to be exclusive.’ ” County of San Mateo, 294 F. Supp. 3d at 938 (quoting Beneficial, 539 U.S. at 9 n.5); see also Her Majesty the
Queen in Right of the Province of Ontario v. City of Detroit, 874 F.2d 332, 342-43 (6th Cir. 1989) (holding that the
plaintiffs’ claims for violation of state air pollution standards were not completely preempted by the CAA because
the CAA’s savings clause “clearly indicates that Congress
did not wish to abolish state control”). Accordingly, I conclude that the CAA does not completely preempt the
City’s claims.
In sum, I disagree with defendants’ contention that removal is proper on the grounds that the City’s state law
claims are completely preempted by the foreign affairs
doctrine and the CAA. However, this Memorandum
Opinion does not foreclose the defense of preemption in
state court. See In re Blackwater Sec. Consulting, LLC,
460 F.3d at 590 (holding that “the district court’s finding
that complete preemption did not create federal removal
jurisdiction will have no preclusive effect on a subsequent
state-court defense of federal preemption”).
4. Federal Enclaves
Defendants offer one final theory for federal question
jurisdiction. That is, they contend that the City’s claims
arise under federal law because they are based on events
that occurred on military bases and other federal enclaves. ECF 124 at 53.
The parameters of this contention are unclear, and defendants eschew mention of any controlling authority. Indeed, defendants only support their argument with a few

61a
cases from various district courts, most of which are unpublished. The Court’s research reveals, however, that
this theory of federal question jurisdiction arises from Article I, Section 8, Clause 17 of the United States Constitution. See, e.g., Willis v. Craig, 555 F.2d 724, 726 (9th Cir.
1977); Mater v. Holley, 200 F.2d 123 (5th Cir. 1952). In
relevant part, that section provides:
Congress shall have Power . . . to exercise exclusive
legislation in all cases whatsoever, over the [District of
Columbia], and to exercise like authority over all
places purchased by the consent of the legislature of
the state in which the [place is located], for the erection of forts, magazines, arsenals, dockyards, and
other needful buildings.
U.S. Const. art. I, § 8, cl. 17.
This provision grants the federal government exclusive legislative jurisdiction over lands obtained pursuant
to this clause, or “enclaves.” In Surplus Trading Co. v.
Cook, 281 U.S. 647 (1930), the Court said: “It has long
been settled that where lands for such a purpose are purchased by the United States with the consent of the State
legislature, the jurisdiction theretofore residing in the
state passes, in virtue of the constitutional provision, to
the United States, thereby making the jurisdiction of the
latter the sole jurisdiction.” Id. at 652; see Akin v. Ashland Chem. Co., 156 F.3d 1030, 1034 (10th Cir. 1998).
Courts have held that federal question jurisdiction exists over claims that arise on federal enclaves. See Stokes
v. Adair, 265 F.2d 662, 666 (4th Cir. 1959); see also
Durham v. Lockheed Martin Corp., 445 F.3d 1247, 1250
(9th Cir. 2006) (“Federal courts have federal question jurisdiction over tort claims that arise on ‘federal enclaves.’ ”) (citations omitted); Akin, 156 F.3d at 1034

62a
(“Personal injury actions which arise from incidents occurring in federal enclaves may be removed to federal district court as a part of federal question jurisdiction.”);
Willis, 555 F.2d at 726; Mater, 200 F.2d at 124; Hall v.
Coca-Cola Co., Civ. No. MSD-18-0244, 2018 WL 4928976,
at *2-3 (E.D. Va. Oct. 11, 2018); Federico v. Lincoln Military Hous., 901 F. Supp. 2d 654, 664 (E.D. Va. 2012). The
general reasoning of these courts is that any claim that
arises on a federal enclave is necessarily a creature of federal law because, quite simply, there is no other law. See
Mater, 200 F.2d at 124 (“[A]ny law existing in territory
over which the United States has exclusive sovereignty
must derive its authority and force from the United States
and is for that reason federal law.”); Hall, 2018 WL
4928976, at *2.
Defendants argue that federal question jurisdiction
exists because “[s]ome” of them maintain production operations and sell fossil fuels on military bases and other
federal enclaves. ECF 124 at 53. Specifically, they assert:
“Standard Oil Co. (Chevron’s predecessor) operated Elk
Hills Naval Petroleum Reserve, a federal enclave, for
most of the twentieth century.” Id. In addition, they allege that defendant CITGO distributed gasoline and diesel under contracts with the Navy to multiple Naval installations. Id. at 54. Finally, defendants contend that
federal enclave jurisdiction exists because the City alleges
tortious conduct, such as lobbying activities, that occurred
in the District of Columbia. Id.
At the outset, I reject defendants’ argument that removal is proper because some of the allegedly tortious
conduct occurred in the District of Columbia. Congress
established a code and a local court system for the District
of Columbia and, in doing so, “divested the federal courts
of jurisdiction over local matters.” Andrade v. Jackson,

63a
401 A.2d 990, 992 (D.C. 1979) (observing that, in establishing a unified local court system under the Court Reform
Act of 1973, “Congress divested the federal courts of jurisdiction over local matters, restricting those courts to
those matters generally viewed as federal business”);
D.C. Code § 11-501 (2012) (civil jurisdiction of the United
States District Court for the District of Columbia); D.C.
Code § 11-921 (2012) (civil jurisdiction of the Superior
Court for the District of Columbia). See also Palmore v.
United States, 411 U.S. 389, 408-09 (1973) (explaining that
Congress established the local court system for the District of Columbia so that Article III courts can be “devoted to matters of national concern”); McEachin v.
United States, 432 A.2d 1212, 1215 (D.C. 1981). That a
claim is based on conduct that occurred in the District of
Columbia, therefore, does not ipso facto make it a federal
claim over which federal question jurisdiction lies. Rather, it must arise under federal law—as distinct from the
local law of the District of Columbia or that of another
state—to fall within the scope of federal question jurisdiction.
Defendants’ contention that federal question jurisdiction exists because CITGO and Chevron’s predecessor,
Standard Oil, conducted fossil fuel operations on federal
enclaves is also without merit. As the dearth of case law
illustrates, courts have only relied on this “federal enclave” theory to exercise federal question jurisdiction in
limited circumstances. Specifically, courts have only
found that claims arise on federal enclaves, and thus fall
within federal question jurisdiction, when all or most of
the pertinent events occurred there. See, e.g., Stokes, 265
F.2d at 665-66 (finding jurisdiction existed over a personal
injury suit where the injury occurred at a U.S. Army
post); Mater, 200 F.2d at 124 (holding that the district

64a
court had jurisdiction over plaintiff’s claim for personal injuries sustained on a military base); Norair Eng’g Corp.
v. URS Fed. Servs., Inc., Civ. No. RDB-16-1440, 2016 WL
7228861, at *3 (D. Md. Dec. 14, 2016) (finding removal
proper where plaintiff’s cause of action arose out of work
performed exclusively on a federal enclave); see also In re
High-Tech Emp. Antitrust Litig., 856 F. Supp. 2d 1103,
1125 (N.D. Cal. 2012) (stating that federal jurisdiction exists in federal enclave cases “when the locus in which the
claim arose is the federal enclave itself”); Totah v. Bies,
Civ. No. CW-10-05956, 2011 WL 1324471, at *2 (N.D. Cal.
Apr. 6, 2011) (upholding removal where the “substance
and consummation of the tort” occurred on a federal enclave).
Those circumstances do not exist here. The City seeks
relief for conduct that occurred globally over a fifty-year
period—that is, defendants’ contribution to global warming through their extraction, production, and sale of fossil
fuel products. ECF 42, ¶¶ 5-7, 18, 20, 191. The Complaint
does not contain any allegations concerning defendants’
conduct on federal enclaves and, in fact, it expressly defines the scope of injury to exclude any federal territory.
Id. ¶¶ 1 n.2, 195-217. Accordingly, it cannot be said that
federal enclaves were the “locus” in which the City’s
claims arose merely because one of the twenty-six defendants, and the predecessor of another defendant, conducted some operations on federal enclaves for some unspecified period of time. See County of San Mateo, 294 F.
Supp. 3d at 939 (finding no federal enclave jurisdiction
over plaintiffs’ claim against oil companies for injuries
stemming from climate change “since federal land was not
the ‘locus in which the claim arose’ ”) (quoting In re HighTech, 856 F. Supp. 2d at 1125); see also Washington v.
Monsanto Co., 274 F. Supp. 3d 1125, 1132 (W.D. Wash.
2017) (stating that, “because [plaintiff] avowedly does not

65a
seek relief for contamination of federal territories, none
of its claims arise on federal enclaves”); Bd. of Comm’rs of
the Se. La. Flood Prot. Auth. v. Tenn. Gas Pipeline Co.,
29 F. Supp. 3d 808, 831 (E.D. La. 2014) (finding no enclave
jurisdiction where plaintiff stipulated that it would not
seek damages for injuries sustained in federal wildlife reserve).
As the City observes, ECF 111-1 at 49, under Maryland law, when events giving rise to a suit occur in multiple jurisdictions, generally “the place of the tort is considered to be the place of injury.” Philip Morris Inc. v. Angeletti, 358 Md. 689, 745, 752 A.2d 200, 231 (2000); see also
Johnson v. Oroweat Foods Co., 785 F.2d 503, 511 (4th Cir.
1986). Here, the claims appear to arise in Baltimore,
where the City allegedly suffered and will suffer harm.
I conclude that removal is not warranted on the
ground that the City’s claims arose on federal enclaves.
C. Alternative Bases for Removal
I turn to the defendants’ alternative bases for removal.

1. Outer Continental Shelf Lands Act
Defendants argue that removal is proper because the
Court has jurisdiction over the City’s claims under the
Outer Continental Shelf Lands Act (“OCSLA”), 43 U.S.C.
§§ 1331-1356b (2012). ECF 124 at 49. Specifically, defendants assert that this case falls within the jurisdictional grant of the OCSLA because they produce a substantial volume of oil and gas on the Outer Continental
Shelf (“OCS”) and the City’s claims arise out of those operations. Id. at 50.
The OCSLA provides, in pertinent part: “The subsoil
and seabed of the outer Continental Shelf appertain to the
United States and are subject to its jurisdiction, control,

66a
and power of disposition . . .” 43 U.S.C. § 1332(a). The
OCSLA contains a jurisdictional grant which states:
[T]he district courts of the United States shall have jurisdiction of cases and controversies arising out of, or
in connection with . . . any operation conducted on the
outer Continental Shelf which involves exploration,
development, or production of the minerals, of the subsoil and seabed of the outer Continental Shelf, or
which involves rights to such minerals . . .
43 U.S.C. § 1349(b)(1).
The Fifth Circuit has found that the OCSLA jurisdictional grant is “broad” and requires only a “ ‘but-for’ connection” between the cause of action and the OCS operation. In re Deepwater Horizon, 745 F.3d 157, 163 (5th Cir.
2014) (quoting Hufnagel v. Omega Serv. Indus., Inc., 182
F.3d 340, 350 (5th Cir. 1999)); see also Barker v. Hercules
Offshore, Inc., 713 F.3d 208, 213 (5th Cir. 2013). The Fifth
Circuit has also said: “A plaintiff does not need to expressly invoke OCSLA in order for it to apply.” Barker,
713 F.3d at 213 (upholding removal where OCSLA jurisdiction existed even though the plaintiff did not specifically invoke it). Defendants do not cite to cases from any
other circuit courts applying the OCSLA jurisdictional
grant, and this Court is only aware of one. See Shell Oil
Co. v. F.E.R.C., 47 F.3d 1186, 1192 (D.C. Cir. 1995) (summarily finding that OCSLA jurisdiction existed over action brought by operator of oil pipeline on OCS challenging FERC order ruling that pipeline was required to provide oil company with access and transportation services).
Even under a “broad” reading of the OCSLA jurisdictional grant endorsed by the Fifth Circuit, defendants fail
to demonstrate that OCSLA jurisdiction exists. In re
Deepwater Horizon, 745 F.3d at 163 (citations omitted).
Defendants were not sued merely for producing fossil fuel

67a
products, let alone for merely producing them on the
OCS. Rather, the City’s claims are based on a broad array
of conduct, including defendants’ failure to warn consumers and the public of the known dangers associated with
fossil fuel products, all of which occurred globally. See
ECF 42, ¶¶ 5-7, 18, 20, 191. And, defendants offer no basis
to enable this Court to conclude that the City’s claims for
injuries stemming from climate change would not have occurred but for defendants’ extraction activities on the
OCS. See County of San Mateo, 294 F. Supp. 3d at 93839 (finding that removal under the OCSLA was not warranted where, even though some of the activities that
caused the plaintiffs’ climate change related injuries
stemmed from operations on the OCS, defendants failed
to show that the plaintiffs’ causes of action would not have
accrued but for their activities on the OCS); see also Matte
v. Mobile Expl. & Prod. North Am. Inc., Civ. No. BWA18-7446, 2018 WL 5023729, at *4-5 (E.D. La. Oct. 17, 2018)
(no OCSLA jurisdiction where defendants failed to show
that plaintiff’s injury, leukemia as a result of benzene exposure, would not have occurred but for his three-month
employment on the OCS, where plaintiff alleged that he
was exposed to benzene for seven years); Hammond v.
Phillips 66 Co., Civ. No. KS-14-0119, 2015 WL 630918, at
*4 (S.D. Miss. Feb. 12, 2015). Cf. In re Deepwater Horizon, 745 F.3d at 163-64 (finding the but for test satisfied
where Louisiana sued defendants for pollution damage to
its waters and coastline caused by a massive oil spill and
it was “undeniable that the oil and other contaminants
would not have entered into the State of Louisiana’s territorial waters but for [defendants’] drilling and exploration operation” on the OCS) (internal quotation marks and
citation omitted).
Accordingly, I am satisfied that the OCSLA does not
support removal.

68a
2. Federal Officer Removal
Defendants assert that this action is removable under
the federal officer removal statute, 28 U.S.C. § 1442, because the City “bases liability on activities undertaken at
the direction of the federal government.” ECF 124 at 56.
In relevant part, the federal officer removal statute
authorizes the removal of cases commenced in state court
against “any officer (or any person acting under that officer) of the United States or of any agency thereof, in an
official or individual capacity, for or relating to any act under color of such office . . .” 28 U.S.C. § 1442(a)(1) (2012).
The Supreme Court has explained:
The [federal officer] removal statute’s “basic” purpose
is to protect the Federal Government from the interference with its “operations” that would ensue were a
State able, for example, to “arrest” and bring “to trial
in a State court for an alleged offense against the law
of the State,” “officers and agents” of the Federal Government “acting . . . within the scope of their authority.”
Watson v. Philip Morris Co., 551 U.S. 142, 150 (2007)
(quoting Willingham v. Morgan, 395 U.S. 402, 406
(1969)); see also Maryland v. Soper, 270 U.S. 9, 32 (1926)
(“The constitutional validity of the section rests on the
right and power of the United States to secure the efficient execution of its laws and to prevent interference
therewith, due to possible local prejudice . . .”).
A defendant who seeks to remove a case under
§ 1442(a)(1) must satisfy three elements. Sawyer v. Foster Wheeler LLC, 860 F.3d 249, 254 (4th Cir. 2017) (citations omitted). First, it must show that it was an officer
of the United States or “acting under” a federal officer
within the meaning of the statute. Id. (citing Watson, 551

69a
U.S. at 147). Second, it must raise “a colorable federal defense.” Id. (citing Jefferson County v. Acker, 527 U.S. 423,
431 (1999)). Finally, it must establish that the charged
conduct was carried out “for or relating to” the asserted
official authority. Id. (citing 28 U.S.C. § 1442(a)(1)); see
Mesa v. California, 489 U.S. 121, 139 (1989); Texas v.
Kleinert, 855 F.3d 305, 311-12 (5th Cir. 2017), cert. denied,
___ U.S. ___, 138 S. Ct. 642 (2018).
This is, of course, a civil case. But, by analogy, in a
criminal case, to establish that an act arises “under color
of such office”, the removing defendant “must ‘show[ ] a
“causal connection” between the charged conduct and asserted official authority.’ ” Kleinert, 855 F.3d at 312 (quoting Willingham, 395 U.S. at 409). “ ‘It must appear that
the prosecution . . . arise[s] out of the acts done by [the
officer] under color of federal authority and in enforcement of federal law . . .’ ” Id. (alterations in original) (quoting Mesa, 489 U.S. at 132-33).
Moreover, invocation of the federal officer removal
statute must be “predicated on the allegation of a colorable federal defense by the defendant officer. Mesa, 489
U.S. at 129; see also North Carolina v. Cisneros, 947 F.2d
1135, 1139 (4th Cir. 1991); North Carolina v. Ivory, 906
F.2d 999, 1001 (4th Cir. 1990). A court must construe the
defendant’s alleged facts as “if those facts were true.”
Ivory, 906 F.2d at 1002. But, the factual allegations must
“support” a defense.” Cisneros, 947 F.2d at 1139 (quoting
Ivory, 906 F.2d at 1001) (emphasis omitted). That is, they
must enable a court to conclude that the “colorable” defense is plausible. See United States v. Todd, 245 F.3d
691, 693 (8th Cir. 2001); Kleinert, 855 F.3d at 313; cf. Jefferson Cty., 527 U.S. at 432 (“[R]equiring a ‘clearly sustainable defense’ rather than a colorable defense would
defeat the purpose of the removal statue”).

70a
Defendants rely on three relationships with the federal government to support their argument that the federal officer removal statute authorizes removal of this action. First, they point out that the predecessor of defendant Chevron, Standard Oil, extracted oil for the United
States Navy. ECF 1, ¶ 63; ECF 2-4 (Unit Plan Contract
of 06/19/1944 between Navy Department and Standard
Oil). In addition, defendant CITGO had fuel supply agreements with the Navy between 1988 and 2012. ECF 1, ¶ 64.
Finally, defendants assert that their operations on the
OCS were regulated by a leasing program developed by
the Secretary of the Interior to promote the development
of OCS resources. Id. ¶ 61; ECF 2-3 (boilerplate lease issued by the Department of the Interior pursuant to the
OCSLA). By contracting with the government to perform
these vital services, defendants argue, they were “acting
under” federal officials. ECF 124 at 62.
Even assuming that the first two requirements for removal under § 1442 are satisfied, defendants have failed
plausibly to assert that the third requirement for removal
under this statute is met—i.e., that the charged conduct
was carried out “for or relating to” the alleged official authority. 28 U.S.C. §1442(a)(1); Sawyer, 860 F.3d at 25758. Defendants have been sued for their contribution to
climate change by producing, promoting, selling, and concealing the dangers of fossil fuel products. See ECF 42,
¶¶ 1, 221, 241, 253, 263. They have not shown that a federal officer controlled their total production and sales of
fossil fuels, nor is there any indication that the federal
government directed them to conceal the hazards of fossil
fuels or prohibited them from providing warnings to consumers.
Defendants claim only that the federal government
purchased oil and gas from one of the twenty-six defendants, and the predecessor of another defendant, and

71a
broadly regulated defendants’ extraction on the OCS.
Case law makes clear that this attenuated connection between the wide array of conduct for which defendants
have been sued and the asserted official authority is not
enough to support removal under § 1442(a)(1). See
County of San Mateo, 294 F. Supp. 3d at 939 (finding that
defendants failed to show a “causal nexus” between the
work performed under federal direction and the plaintiffs’
claims for injuries stemming from climate change because
the plaintiffs’ claims were “based on a wider range of conduct”); In re Wireless Tel., 327 F. Supp. 2d 554, 562-63 (D.
Md. 2004) (holding that phone manufacturers could not
remove pursuant to § 1442(a)(1) where plaintiffs’ claims
were largely based on their failure to provide warnings to
consumers and the manufacturers did not show that the
government prohibited them from providing additional
safeguards or information to consumers); Ryan v. Dow
Chem. Co., 781 F. Supp. 934, 950 (E.D.N.Y. 1992) (finding
that defendants could not remove case pursuant to
§ 1442(a)(1) where they were “being sued for formulating
and producing a product all of whose components were developed without direct government control and all of
whose methods of manufacture were determined by the
defendants”). Cf. Sawyer, 860 F.3d at 258 (finding a sufficient connection between the charged conduct and the
asserted official authority where the plaintiffs alleged that
defendant failed to warn them of asbestos in the boilers it
manufactured for the Navy and the Navy dictated the
content of the warnings on defendant’s boilers).
Therefore, even assuming, arguendo, that the defendants were “acting under” federal officials on these occasions and can assert a colorable defense, removal based
on the federal officer removal statute is not proper because defendants have failed to plausibly assert that the
acts for which they have been sued were carried out “for

72a
or relating to” the alleged federal authority. 28 U.S.C.
§1442(a)(1); Sawyer, 860 F.3d at 254.
3. Bankruptcy Removal Statute
Defendants maintain that the bankruptcy removal
statute, 28 U.S.C. § 1452, permits removal. ECF 124 at
64. That statute provides, in relevant part:
A party may remove any claim or cause of action in a
civil action other than . . . a civil action by a governmental unit to enforce such governmental unit’s police
or regulatory power, to the district court for the district where such civil action is pending, if such district
court has jurisdiction of such claim or cause of action
under section 1334 of this title.
28 U.S.C. § 1452(a). Section 1334, in turn, grants district
courts original but not exclusive jurisdiction “of all civil
proceedings . . . arising in or related to cases under title
11.” Id. § 1334(b).
According to defendants, this action falls within the
Court’s original jurisdiction under § 1334 because it is “related to countless bankruptcy cases.” ECF 124 at 64.
Specifically, they claim that this action is related to bankruptcy proceedings involving the predecessor of defendant Chevron, Texaco, whose Chapter 11 plan was confirmed in 1987. Id. at 65. Defendants also assert that Texaco’s Chapter 11 plan bars “certain claims” against it arising before March 15, 1988, and, because the City seeks to
hold defendant Chevron liable for Texaco’s culpable conduct before that date, the adjudication of the City’s claims
would affect the interpretation or administration of the
plan. Id. In addition, defendants argue that this case is
related to the bankruptcy proceedings of other companies
in the fossil fuel industry, such as Peabody Energy. Id.
Therefore, defendants posit that this case falls within the

73a
Court’s “related to” jurisdiction and was properly removed under § 1452. Id. at 64-65.
The City contends, however, that this action does not
fall within the Court’s original jurisdiction under § 1334
because it is not related to any bankruptcy proceedings.
ECF 111-1 at 59-60. In addition, the City argues that this
action is exempt from removal under § 1452 because it
represents an exercise of its police and regulatory powers.
Id. at 56-58.
The Court first considers whether this action is “related to” a bankruptcy proceeding and, thus, subject to removal under the bankruptcy removal statute. 28 U.S.C.
§ 1334(b); 28 U.S.C. § 1452(a) (“A party may remove . . . if
such district court has jurisdiction of such claim or cause
of action under section 1334 of this title.”). The “close
nexus” test determines the scope of a court’s “related to”
jurisdiction in the post-confirmation context. Valley Historic Ltd. P’ship v. Bank of N.Y., 486 F.3d 831, 836 (4th
Cir. 2007). That is, for “related to” jurisdiction to exist
after a Chapter 11 plan is confirmed, “the claim must affect an integral aspect of the bankruptcy process—there
must be a close nexus to the bankruptcy plan or proceeding.” Id. at 836 (quoting In re Resorts Int’l, Inc., 372 F.3d
154, 166-67 (3d Cir. 2004)); see also In re Wilshire Courtyard, 729 F.3d 1279, 1287 (9th Cir. 2013).
Under this inquiry, “[m]atters that affect the interpretation, implementation, consummation, execution, or administration of the confirmed plan will typically have the
requisite close nexus.” Valley Historic, 486 F.3d at 83637 (quoting In re Resorts Int’l, 372 F.3d at 167). As the
Fourth Circuit explained, the “close nexus” requirement
“insures that the proceeding serves a bankruptcy administration purpose on the date the bankruptcy court exercises that jurisdiction.” Id. at 837. See also In re Pegasus
Gold Corp., 394 F.3d 1189, 1194 (9th Cir. 2005) (adopting

74a
the “close nexus” test for post-confirmation “related to”
jurisdiction because it “recognizes the limited nature of
post-confirmation jurisdiction but retains a certain flexibility”).
Defendants fail to demonstrate that there is a “close
nexus” between this action and any bankruptcy proceedings. The only bankruptcy plan that defendants identify
was confirmed more than thirty years ago and, although
defendants assert that the plan bars “certain claims
against [Texaco] arising before March 15, 1988,” they do
not explain how the City’s recently filed claims implicate
this provision. ECF 124 at 65. At most, defendants have
only established that some day a question might arise as
to whether a previous bankruptcy discharge precludes the
enforcement of a portion of the judgment in this case
against defendant Chevron. This remote connection does
not bring this case within the Court’s “related to” jurisdiction. 28 U.S.C. 1334(b); see In re Ray, 624 F.3d 1124,
1135 (9th Cir. 2010) (holding that the bankruptcy court did
not have “related to” jurisdiction over breach of contract
action that “could have existed entirely apart from the
bankruptcy proceeding and did not necessarily depend
upon resolution of a substantial question of bankruptcy
law”).
Moreover, even assuming, arguendo, that this action
is within the Court’s bankruptcy jurisdiction, it is exempt
from removal under § 1452 as an exercise of the City’s police or regulatory powers.
To my knowledge, the Fourth Circuit has not considered the parameters of the police or regulatory exception
to removal under § 1452. It has, however, construed the
phrase “police or regulatory power” in the automatic stay
provision of the bankruptcy code. See Safety-Kleen, Inc.
(Pinewood) v. Wyche, 274 F.3d 846, 865 (4th Cir. 2001).
That section, in relevant part, exempts from the automatic

75a
stay “the commencement or continuation of an action or
proceeding by a governmental unit . . . to enforce such
governmental unit’s . . . power and regulatory power, including the enforcement of a judgment other than a
money judgment . . .” 11 U.S.C. § 362(b)(4). Because
“[t]he language of the police and regulatory power exceptions in the automatic stay context and in the removal context is virtually identical, and the purpose behind each exception is the same,” it is proper to look to judicial interpretation of § 362 for guidance in applying the exception
in the removal context. City & Cty. of San Francisco v.
PG&E Corp., 433 F.3d 1115, 1123 (9th Cir. 2006), cert denied, 549 U.S. 882 (2006); see also In re Methyl Tertiary
Butyl Ether (“MTBE”) Prods. Liab. Litig., 488 F.3d 112,
132 (2d Cir. 2007) (looking to judicial interpretations of
§ 362(b)(4) for guidance in defining the parameters of a
governmental unit’s police or regulatory power in the context of § 1452).
The Fourth Circuit looks to the “purpose of the law
that the state seeks to enforce” to determine whether an
action is an exercise of a governmental entity’s police and
regulatory power. Safety-Kleen, 274 F.3d at 865. In
Safety-Kleen, it explained the inquiry as follows:
If the purpose of the law is to promote “public safety
and welfare,” or to “effectuate public policy,” then the
exception applies. On the other hand, if the purpose of
the law relates “to the protection of the government’s
pecuniary interest in the debtor’s property,” or to “adjudicate private rights,” then the exception is inapplicable.
Id. (citations omitted). This inquiry is an objective one.
Id. The court examines “the purpose of the law that the
state seeks to enforce rather than the state’s intent in enforcing the law in a particular case.” Id.

76a
The City asserts claims against defendants for injuries
stemming from climate change. It brings this action on
behalf of the public to remedy and prevent environmental
damage, punish wrongdoers, and deter illegal activity. As
other courts have recognized, such an action falls squarely
within the police or regulatory exception to § 1452. See
County of San Mateo, 294 F. Supp. 3d at 939 (holding that
suits against oil companies for injuries stemming from climate change were exempt from bankruptcy removal statute because they were “aimed at protecting the public
safety and welfare and brought on behalf of the public”);
MTBE, 488 F.3d at 133 (finding that the police power exception prevented the removal of states’ claims against
corporations that manufactured and distributed gasoline
containing MTBE because “the clear goal of these proceedings is to remedy and prevent environmental damage
with potentially serious consequences for public health, a
significant area of state policy”). See also Safety-Kleen,
274 F.3d at 866 (holding that a state environmental
agency’s attempt to enforce financial assurance requirements was within the regulatory exception because “the
regulations serve to promote environmental safety in the
design and operation of hazardous waste facilities”).
That the relief sought by the City includes a monetary
judgment does not alter this conclusion. In Safety-Kleen,
the Fourth Circuit reasoned: “The fact that one purpose
of the law is to protect the state’s pecuniary interest does
not necessarily mean that the exception is inapplicable.
Rather, we must determine the primary purpose of the
law that the state is attempting to enforce.” 274 F.3d at
865. See also MTBE, 488 F.3d at 133-34 (rejecting defendants’ argument that the police power exception to
§ 1452 did not apply to suit brought by governmental units
for environmental damage merely because they sought
money damages).

77a
Accordingly, I reject defendants’ argument that removal of this case is proper under § 1452.
4. Admiralty Jurisdiction
Defendants assert that admiralty jurisdiction supports removal of this action. The contention is premised
on the fact that, according to defendants, the Complaint
alleges injury based on their offshore oil and gas drilling
from vessels. ECF 124 at 67.
The Constitution extends the federal judicial power
“to all Cases of admiralty and maritime Jurisdiction.”
U.S. Const. art. III, § 2. Congress codified this power in
a statute, 28 U.S.C. § 1333, which grants federal district
courts “original jurisdiction, exclusive of the courts of the
States, of . . . [a]ny civil case of admiralty or maritime jurisdiction, saving to suitors in all cases all other remedies
to which they are otherwise entitled.” Id. § 1333(1); see
Jerome B. Grubart, Inc. v. Great Lakes Dredge & Dock
Co., 513 U.S. 527, 531 (1995). The latter portion of this
jurisdictional grant, often referred to as the “saving to
suitors” clause, is a “grant to state courts of in personam
jurisdiction, concurrent with admiralty courts.” Lewis v.
Lewis & Clark Marine, Inc., 531 U.S. 438, 445 (2001) (citations omitted).
The City argues that admiralty claims brought in state
court are not removable under 28 U.S.C. § 1441 absent
some other jurisdictional basis, such as diversity or federal question jurisdiction. ECF 111-1 at 62. Further, it
maintains that, even if admiralty jurisdiction does supply
an independent basis for removal, this action does not fall
within the Court’s admiralty jurisdiction because it satisfies neither the “location” test nor the “connection to maritime activity” test articulated by the Supreme Court. Id.
at 63-64 (citing Grubart, 513 U.S. at 534).

78a
The scope of removal jurisdiction over admiralty
claims has generated significant confusion over the years.
See 14A Charles Alan Wright, Arthur R. Miller & Edward
H. Cooper, Federal Practice and Procedure: Jurisdiction
§ 3674 (4th ed. 2013) (“Whether an admiralty or maritime
matter instituted in a state court falls within the removal
jurisdiction of the federal courts is a question that has
been beset by confusion and uncertainty over the years,
some of which continues to this day.”).
To my knowledge, most of the courts that have considered the issue have concluded that admiralty claims are
not removable absent an independent basis for federal jurisdiction, such as diversity. See Cassidy v. Murray, 34
F. Supp. 3d 579, 583 (D. Md. 2014); Forde v. Hornblower
N.Y., LLC, 243 F. Supp. 3d 461, 467-68 (S.D.N.Y. 2017)
(noting that “the overwhelming majority of district
courts” have held that admiralty claims are not removable
absent another basis for jurisdiction); Langlois v. Kirby
Inland Marine, LP, 139 F. Supp. 3d 804, 809-10 (M.D. La.
2015) (citing over forty cases for the proposition that a
“growing chorus of district courts that have concluded
that the [the 2011 amendment to § 1441] did not upset the
long-established rule that general maritime law claims,
saved to suitors, are not removable to federal court, absent some basis for original federal jurisdiction other than
admiralty”). See also 14A Wright & Miller, supra, § 3674
(4th ed. Supp. 2019) (noting that a majority of courts have
found that admiralty jurisdiction does not independently
support removal). But, as defendants point out, some
courts have held otherwise. See Ryan v. Hercules Offshore, Inc., 945 F. Supp. 2d 772, 777-78 (S.D. Tex. 2013)
(holding that admiralty claims are freely removable); see
also Exxon Mobil Corp. v. Starr Indem. & Liab. Co., Civ.
No. NFA-14-1147, 2014 WL 2739309, at *2 (S.D. Tex.

79a
June 17, 2014), remanded on other grounds on reconsideration, 2014 WL 4167807 (S.D. Tex. Aug. 20, 2014); Carrigan v. M/V AMC Ambassador, Civ. No. EW-13-3208,
2014 WL 358353, at *2 (S.D. Tex. Jan. 31, 2014).
In my view, this Court need not weigh in on this admittedly complicated issue. I find safe harbor in the view
that, even if admiralty jurisdiction does provide an independent basis for removal, this case is outside the Court’s
admiralty jurisdiction.
As to a tort claim, a party seeking to invoke federal
admiralty jurisdiction pursuant to 28 U.S.C. §1333(1)
must satisfy two tests: the “location test” and the “maritime connection” test. Grubart, 513 U.S. at 534, 538. To
satisfy the location test, a plaintiff must show that the tort
at issue “occurred on navigable water,” or if the injury
was suffered on land, that it was “caused by a vessel on
navigable water” within the meaning of the Admiralty Extension Act. Id. at 534 (citing former 46 U.S.C. § 30101(a)
(2012)). To satisfy the maritime connection test, a plaintiff
must show that the case has “a potentially disruptive impact on maritime commerce” and that the “general character of the activity giving rise to the incident shows a substantial relationship to traditional maritime activity.” Id.
(internal quotation marks and citations omitted).
The Court’s analysis begins and ends with the location
test. Defendants do not dispute that the City’s injuries
occurred on land; they argue only that the location test is
satisfied because the City’s injuries were caused by vessels on navigable waters within the meaning of the Admiralty Extension Act, 46 U.S.C. § 30101(a). ECF 124 at 69.
The Admiralty Extension Act provides, in relevant
part, 46 U.S.C. § 30101(a):
The admiralty and maritime jurisdiction of the United
States extends to and includes cases of injury or dam-

80a
age, to person or property, caused by a vessel on navigable waters, even though the injury or damage is
done or consummated on land.
The statute broadened the reach of admiralty jurisdiction to include claims for injuries suffered on land that are
caused by vessels. See id. Congress passed the Admiralty
Extension Act “specifically to overrule or circumvent” a
line of Supreme Court cases that had “refused to permit
recovery in admiralty even where a ship or its gear,
through collision or otherwise, caused damage to persons
ashore or to bridges, docks, or other shore-based property.” Victory Carriers, Inc. v. Law, 404 U.S. 202, 209
(1971); see also Louisville & N.R. Co. v. M/V Bayou
Lacombe, 597 F.2d 469, 472 (5th Cir. 1979) (“As a result of
the Act, a plaintiff is no longer precluded from suing in
admiralty when a vessel collides with a land structure,
such as a bridge.”).
Not all torts involving vessels on navigable waters fall
within the Admiralty Extension Act, however. Rather,
the Act requires that an injury on land be proximately
caused by a vessel or its appurtenances. Grubart, 513
U.S. at 536 (holding that the terms “caused by” in the Admiralty Extension Act require proximate causation); see
also Pryor v. Am. President Lines, 520 F.2d 974, 979 (4th
Cir. 1975) (holding that “a ship or its appurtenances must
proximately cause an injury on shore” to fall within admiralty jurisdiction), cert. denied, 423 U.S. 1055 (1976); Adamson v. Port of Bellingham, 907 F.3d 1122, 1131-32 (9th
Cir. 2018) (holding that the Admiralty Extension Act applies only when an injury on land is proximately caused by
a vessel or its appurtenances, not those performing acts
for the vessel); Scott v. Trump Ind., Inc., 337 F.3d 939,
943 (7th Cir. 2003); Egorov, Puchinsky, Afanasiev &
Juring v. Terriberry, Carroll & Yancey, 183 F.3d 453, 456
(5th Cir. 1999) (stating that “the [Admiralty Extension]

81a
Act means the vessel and her appurtenances, and does not
include those performing actions for the vessel”) (citations
omitted).
Even if mobile drilling platforms qualify as “vessels”
in admiralty, defendants have failed to demonstrate that
the City’s injuries were “caused by a vessel on navigable
waters,” within the meaning of the Admiralty Extension
Act. 46 U.S.C. § 30101(a). The City nowhere alleges that
defendants’ mobile drilling platforms or their appurtenances caused its injuries. Indeed, the Complaint does
not mention any mobile drilling platforms or other vessels. Rather, the City alleges that defendants’ worldwide
production, wrongful promotion, and sale of fossil fuel
products caused its environmental disruptions and their
associated impacts.
That some unspecified portion of defendants’ production occurred on these vessels, as defendants assert, does
not mean that the vessels themselves caused the City’s injuries, much less proximately caused them. See Pryor,
520 F.2d at 982 (finding vessel did not cause plaintiff’s injuries on land “[b]ecause it is not conceptually possible to
charge the ship with having caused the defective packaging . . .”). Thus, it cannot be said that the City’s injuries
were “caused by a vessel on navigable waters,” within the
meaning of the Admiralty Extension Act. 46 U.S.C.
§ 30101(a).
II. CONCLUSION
For the reasons stated above, I conclude that the case
was not properly removed to federal court. Therefore, the
case must be remanded to the Circuit Court for Baltimore
City, pursuant to 28 U.S.C. § 1447(c).
As stipulated by the parties, the Court will stay execution of an order to remand for thirty days.
An Order follows.

82a
APPENDIX C
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF MARYLAND

Civil Action No. ELH-18-2357

MAYOR AND CITY COUNCIL OF BALTIMORE,
Plaintiff,
v.
BP P.L.C., et al.,
Defendants.

Filed: July 31, 2009

MEMORANDUM
HOLLANDER, United States District Judge.
In this Memorandum, I address defendants’ motion to
stay the Court’s Order (ECF 173) remanding this case to
the Circuit Court for Baltimore City. See ECF 173 (“Remand Order”). Defendants seek the stay pending resolution by the United States Court of Appeals for the Fourth
Circuit of their appeal of the Remand Order. Defendants’
motion (ECF 183) is supported by a memorandum of law
(ECF 183-1) (collectively, “Motion to Stay”). Plaintiff, the

83a
Mayor and City Council of Baltimore (the “City”), opposes the Motion to Stay. ECF 186. Defendants have replied. ECF 187.
No hearing is necessary to resolve the Motion to Stay.
See Local Rule 105.6. For the reasons that follow, I shall
deny the Motion to Stay.
I. FACTUAL AND PROCEDURAL BACKGROUND
On July 20, 2018, the City filed suit in the Circuit Court
for Baltimore City against twenty-six multinational oil
and gas companies. ECF 42 (Complaint). The City alleges that defendants have substantially contributed to
greenhouse gas pollution, global warming, and climate
change by extracting, producing, promoting, refining, distributing, and selling fossil fuel products (i.e., coal, oil, and
natural gas), while simultaneously deceiving consumers
and the public about the dangers associated with those
products. Id. ¶¶ 1-8. As a result of such conduct, the City
claims that it has sustained and will sustain several injuries, including a rise in sea level along Maryland’s coast,
as well as an increase in storms, floods, heatwaves,
drought, extreme precipitation, and other conditions. Id.
¶ 8.
The Complaint contains eight causes of action, all
founded on Maryland law: public nuisance (Count I); private nuisance (Count II); strict liability for failure to warn
(Count III); strict liability for design defect (Count IV);
negligent design defect (Count V); negligent failure to
warn (Count VI); trespass (Count VII); and violations of
the Maryland Consumer Protection Act, Md. Code (2013
Repl. Vol., 2019 Supp.), Com. Law §§ 13-101 to 13-501
(Count VIII). ECF 42 ¶¶ 218-98. The City seeks monetary damages, civil penalties, and equitable relief. Id.
Two of the defendants, Chevron Corp. and Chevron
U.S.A., Inc. (collectively, “Chevron”), timely removed the

84a
case to this Court. ECF 1 (Notice of Removal). They asserted the following eight grounds for removal: (1) the
case is removable under 28 U.S.C. § 1441(a) and § 1331,
because the City’s claims are governed by federal common law, not state common law; (2) the action raises disputed and substantial issues of federal law that must be
adjudicated in a federal forum; (3) the City’s claims are
completely preempted by the Clean Air Act (“CAA”), 42
U.S.C. § 7401 et seq., and/or other federal statutes and the
Constitution; (4) this Court has original jurisdiction under
the Outer Continental Shelf Lands Act (“OCSLA”), 43
U.S.C. § 1349(b); (5) removal is authorized under the federal officer removal statute, 28 U.S.C. § 1442(a)(l); (6) this
Court has federal question jurisdiction under 28 U.S.C.
§ 1331 because the City’s claims are based on alleged injuries to and/or conduct on federal enclaves; (7) removal
is authorized under 28 U.S.C. §1452(a) and 28 U.S.C.
§ 1334(b), because the City’s claims are related to federal
bankruptcy cases; and (8) the City’s claims fall within the
Court’s original admiralty jurisdiction under 28 U.S.C.
§ 333. ECF 1 at 6-12, ¶¶ 5-12.
Thereafter, the City filed a motion to remand the case
to state court, pursuant to 28 U.S.C. §1447(c). ECF 111.
The motion was supported by a memorandum of law
(ECF 111-1) (collectively, “Remand Motion”). Defendants filed a joint opposition to the Remand Motion (ECF
124, “Opposition”), along with three supplements containing numerous exhibits. ECF 125; ECF 126; ECF 127.
The City replied. ECF 133.
While the City’s Remand Motion was pending, defendants filed a conditional motion to stay the execution of any
order to remand. ECF 161. They asked that, in the event
this Court grants the City’s Remand Motion, the Court
issue an order staying execution of the remand for thirty
days to allow time to appeal the ruling. Id. at 1-2. The

85a
City initially opposed that motion (ECF 162), but subsequently stipulated to the requested stay. ECF 170. This
Court accepted the parties’ stipulation by Consent Order
of April 22, 2019. ECF 171.
In a Memorandum Opinion (ECF 172) and Order
(ECF 173) of June 10, 2019, I granted the City’s Remand
Motion. After consideration of all eight bases for removal
relied on by defendants, I concluded that removal was improper. See ECF 172. However, in accordance with the
parties’ joint stipulation (ECF 170) and the Court’s prior
Order (ECF 171), I stayed execution of the Remand Order for thirty days. ECF 173.
On June 13, 2019, defendants filed a Notice of Appeal
of the Remand Order to the United States Court of Appeals for the Fourth Circuit. ECF 178. Then, on June 23,
2019, defendants filed the Motion to Stay currently pending before this Court. ECF 183. Defendants ask this
Court to stay execution of the remand until their appeal is
resolved by the Fourth Circuit, arguing that their appeal
“presents substantial legal questions on which Defendants are likely to succeed.” ECF 183 ¶ 3. In the alternative, they ask the Court to extend the current stay until
this Court resolves their Motion to Stay and, should the
Court deny the Motion, until the Fourth Circuit resolves
the Motion to Stay. Id. ¶ 4.
That same day, the City stipulated to a partial extension of the current stay. ECF 184. That is, the City
agreed to stay the execution of the remand “through and
including this Court’s resolution of Defendants’ Motion to
Extend the Stay Pending Appeal, and if that motion is denied, through the resolution of Defendants’ anticipated
Motion to Stay in the U.S. Court of Appeals for the Fourth
Circuit.” ECF 184 at 2. This Court accepted the parties’
joint stipulation by Consent Order of June 24, 2019. ECF
185.

86a
However, the City opposes the defendants’ Motion to
Stay pending resolution of the merits of the appeal of the
remand. ECF 186. It argues that defendants are unlikely
to succeed on the merits of the appeal, that defendants
would not suffer irreparable harm absent a stay, and that
a stay would delay resolution of its claims. Id. at 4-17.
II. DISCUSSION
A stay is “ ‘an exercise of judicial discretion’ and ‘[t]he
propriety of its issue is dependent upon the circumstances
of the particular case.’ ” Nken v. Holder, 556 U.S. 418,433
(2009) (quoting Virginia Ry. Co. v. United States, 272
U.S. 658, 672 (1926)). The party requesting a stay bears
the burden of showing that a stay is warranted. Id. at 43334. When evaluating a motion to stay, courts consider four
factors: “(1) whether the stay applicant has made a strong
showing that he is likely to succeed on the merits; (2)
whether the applicant will be irreparably injured absent a
stay, (3) whether issuance of the stay will substantially injure the other parties interested in the proceeding; and (4)
where the public interest lies.” Id. at 434; see Hilton v.
Braunskill, 481 U.S. 770, 776 (1987); Nero v. Mosby, No.
MJG-16-1288, 2017 WL 1048259, at *l (D. Md. Mar. 20,
2017); Realvirt, LLC v. Lee, 220 F. Supp. 3d 704, 705 (E.D.
Va. 2016). The first two factors are the “most critical.”
Nken, 556 U.S. at 434.
The Court begins with the first factor—the defendants’ likelihood of success on the merits of their appeal.
Nken, 556 U.S. at 434. Defendants assert that their appeal presents substantial legal questions, particularly
whether removal was proper because the City’s claims
“necessarily arise under federal common law.” ECF 1831 at 2. They point out that other district courts in similar
cases have reached different conclusions on this issue. Id.
at 2, 5-9. Thus, according to defendants, the first factor

87a
supports the issuance of a stay pending resolution of the
appeal. Id.
The Court agrees that the removal of this case based
on the application of federal law presents a complex and
unsettled legal question, as evidenced by the diverging
opinions reached by other district courts that have considered the issue. Compare California v. BP P.L.C., No.
WHA-16-6011, 2018 WL 1064293, at *5 (N.D. Cal. Feb. 27,
2018) (upholding removal of plaintiffs’ public nuisance
claims against fossil fuel companies because, “though pled
as state-law claims, [they] depend on a global complex of
geophysical cause and effect involving all nations of the
planet” and, thus, “are governed by federal common
law”), appeal docketed sub. nom., City of Oakland v. BP,
P.L.C., No. 18-16663 (9th Cir. Sept. 4, 2018), with County
of San Mateo v. Chevron Corp., 294 F. Supp. 3d 934, 93739 (N.D. Cal. 2018) (remanding plaintiffs’ tort claims
against oil companies relating to global warming because
removal was not supported by federal common law or any
of the other bases relied upon by defendants), appeal
docketed sub. nom., County of Marin v. Chevron Corp.,
No. 18-15503 (9th Cir. Mar. 27, 2018), and Rhode Island
v. Chevron Corp., No. WES-18-0395, 2019 WL 3282007, at
*2-3 (D.R.I. July 22, 2019) (same). But, of course, this issue does not support a stay pending resolution of defendants’ appeal if it is not actually presented on appeal. And,
as the City points out, a remand based on a finding of lack
of subject matter jurisdiction—like that issued by this
Court—is typically not subject to appellate review. See
ECF 173.
The scope of appellate review over remand orders is
“substantially limited” by 28 U.S.C. § 1447(d). Powerex
Corp. v. Reliant Energy Servs., Inc., 551 U.S. 224, 229
(2007). That section provides: “An order remanding a
case to the State court from which it was removed is not

88a
reviewable on appeal or otherwise, except that an order
remanding a case to the State court from which it was removed pursuant to section 1442 [federal officer removal]
or 1443 [civil rights cases] of this title shall be reviewable
by appeal or otherwise.” 28 U.S.C. § 1447(d). This statute
generally prohibits appellate review of remand orders
based on a district court’s lack of subject matter jurisdiction. Powerex, 551 U.S. at 230; see In re Norfolk S. Ry.
Co., 756 F.3d 282, 287 (4th Cir. 2014); In re Blackwater
Sec. Consulting, LLC, 460 F.3d 576, 585 (4th Cir. 2006)
(finding that § 1447(d) prohibited appellate review of remand order because “the reasoning behind the district
court’s remand order in this case indicate[ d] the court’s
belief that it lacked subject matter jurisdiction upon removal”).
The purpose of the prohibition on appellate review of
remand orders in § 1447(d) is to avoid “prolonged litigation on threshold nonmerits questions.” Powerex, 551
U.S. at 237. This rule is strict; it bars review “even if the
remand order is manifestly, inarguably erroneous,” In re
Norfolk S., 756 F.3d at 287, and even if the “erroneous remand[] has undesirable consequences” for federal interests, Powerex, 551 U.S. at 237.
Defendants seek to avoid the force of § 1447(d)
through reliance on one of their grounds for removal—the
federal officer removal statute, 28 U.S.C. § 1442. ECF
183-1 at 4-5. They point out that § 1447(d) expressly exempts cases removed under § 1442 from the general prohibition on appellate review of remand orders. 1 Id.; see

There are a few other exceptions to § 1447(d)’s bar on appellate
review of remand orders. See 14C Charles Alan Wright et al., Federal
Practice & Procedure: Jurisdiction and Related Matters § 3740 (4th
ed. 2018) (outlining the exceptions to the no-appeal rule for remand
orders); see also Powerex, 551 U.S. at 237; In re Norfolk S., 756 F.3d
1

89a
Northrop Grumman Tech. Servs., Inc. v. DynCorp Int’l
LLC, 865 F.3d 181, 186 n.4 (4th Cir. 2017) (“Although orders remanding cases to state court generally are not reviewable on appeal, we may review such an order when,
as here, the removal was made pursuant to the federal officer removal statute, 28 U.S.C. § 1442.”) (citing 28 U.S.C.
§ 1447(d)). So, defendants’ argument goes, because this
ground for removal is subject to appellate review, all of
their other grounds for removal are also subject to appellate review—including the complex legal question presented by removal of the case based on the application of
federal common law. ECF 183-1 at 4-5.
But, case law suggests otherwise. The Fourth Circuit
has concluded that, when a case that was removed on several grounds is remanded, appellate jurisdiction of the remand extends only to those bases for removal that are reviewable. See Lee v. Murraybey, 487 F. App’x 84, 85 (4th
Cir. 2012) (“To the extent that the district court concluded
it lacked subject matter jurisdiction under removal provisions other than § 1443 [removal in civil rights cases], we
dismiss the appeal.”); Noel v. McCain, 538 F.2d 633, 635
(4th Cir. 1976) (holding that appellate jurisdiction of a remand extended to the issue of whether removal was
proper under § 1443—because § 1447(d) authorized such
review—but did not extend to the issue of whether removal was proper based on federal question jurisdiction).
The majority of other circuits have reached the same conclusion. See Jacks v. Meridian Res. Co., 701 F.3d 1224,
1229 (8th Cir. 2012) (holding that remand of case was subject to appellate review only to the extent it was based on
the federal officer removal statute); Patel v. Del Taco,
Inc., 446 F.3d 996, 998 (9th Cir. 2006); Alabama v. Conley,
at 287. Defendants do not identify any other exception that is applicable here, and this Court is aware of none.

90a
245 F.3d 1292, 1293 n.1 (11th Cir. 2001); Davis v. Glanton,
107 F.3d 1044, 1047 (3d Cir. 1997); State Farm Mut. Auto.
Ins. Co. v. Baasch, 644 F.2d 94, 96-97 (2d Cir. 1981); but
see Mays v. City of Flint, Mich., 871 F.3d 437, 442 (6th
Cir. 2017) (holding that § 1447(d) authorized review of district court's decision on the propriety of federal officer removal and this jurisdiction “also encompasses review of
the district court’s decision on the alternative ground for
removal under [federal question jurisdiction]”); Decatur
Hosp. Auth. v. Aetna Health, Inc., 854 F.3d 292, 296 (5th
Cir. 2017) (same); Lu Junhong v. Boeing Co., 792 F.3d
805, 811 (7th Cir. 2015) (Easterbrook, J.) (“ . . . once an
appeal of a remand ‘order’ has been authorized by statute,
the court of appeals may consider all of the legal issues
entailed in the decision to remand”).
Accordingly, in this case, only the issue of federal officer removal would be subject to review on defendants’
appeal of the remand. Defendants have not demonstrated
a substantial likelihood of success on the merits of this issue, or even that removal of this case under the federal
officer removal statute raises a complex, serious legal
question. They merely recite the same arguments outlined in their Notice of Removal and opposition to the
City’s Remand Motion. See ECF 1 at 34-40; ECF 124 at
56-64; ECF 183-1 at 5-7.
This Court considered defendants’ arguments at
length and rejected them in its Memorandum Opinion of
June 10, 2019. ECF 172 at 34-37. And, courts that have
addressed the removal of similar cases under the federal
officer removal statute have reached the same conclusion.
See County of San Mateo v. Chevron Corp., 294 F. Supp.
3d at 939 (“Nor was there a reasonable basis for federal
officer removal, because the defendants have not shown a
‘causal nexus’ between the work performed under federal
direction and the plaintiffs’ claims, which are based on a

91a
wider range of conduct.”) (citations omitted); Rhode Island v. Chevron Corp., 2019 WL 3282007, at *5 (finding
federal officer removal statute did not support removal of
plaintiff’s suit against fossil fuel producers because
“[d]efendants cannot show the alleged promotion and sale
of fossil fuels abetted by a sophisticated misinformation
campaign were ‘justified by [their] federal duty’ ”) (quoting Mesa v. California, 489 U.S. 121, 131-32 (1989)). That
this issue may be subject to appellate review, therefore,
does not support the issuance of a stay pending appeal.
In any event, defendants have not demonstrated that
any of the remaining three factors support a stay pending
resolution of their appeal of the Remand Order. Thus,
even if the Remand Order is subject to appellate review in
its entirety, I am satisfied that such a stay is not warranted.
The second factor courts consider in evaluating a motion to stay is whether the applicant will be irreparably
injured absent a stay. Nken, 556 U.S. at 434. Defendants
argue that this factor supports a stay pending appeal because an immediate remand would render their appeal
meaningless and would undermine the right to a federal
forum provided by the federal officer removal statute.
ECF 183-1 at 12-14. They assert that federal courts are
“uniquely qualified” to address the issues raised in this
case and, further, that proceeding with litigation in state
court would cost them significant time and money. Id. at
13.
Defendants’ arguments are unavailing. Absent a stay,
their appeal would only be rendered moot in the unlikely

92a
event that a final judgment is reached in state court before the resolution of their appeal. 2 This speculative harm
does not constitute an irreparable injury. See Rose v. Logan, No. RDB-13-3592, 2014 WL 3616380, at *3 (D. Md.
July 21, 2014) (“An appeal being rendered moot does not
itself constitute irreparable injury.”); see also Nken, 556
U.S. at 434-35 (“[S]imply showing some possibility of irreparable injury fails to satisfy the second factor.”) (citation and internal quotation marks omitted); Brea Union
Plaza I, LLC v. Toys R Us, Inc., No. MHL-18-0419, 2018
WL 3543056, at *5 (E.D. Va. July 23, 2018) (finding this
factor did not support a stay because the purported harm
was “entirely speculative”).
Nor have defendants shown that the cost of proceeding with litigation in state court would cause them to suffer irreparable injury. See Renegotiation Bd. v. Bannercraft Clothing Co., 415 U.S. 1, 24 (1974) (“Mere litigation expense, even substantial and unrecoupable cost,
does not constitute irreparable injury.”); Long v. Robinson, 432 F.2d 977, 980 (4th Cir. 1970) (“[M]ere injuries,
however substantial, in terms of money, time and energy
necessarily expended in the absence of a stay, are not
enough.”) (citation omitted); Broadway Grill, Inc. v. Visa
Inc., No. PJH-16-4040, 2016 WL 6069234, at *2 (N.D. Cal.
Oct. 17, 2016) (finding no irreparable harm because the
2
The Court notes that defendants acknowledge—and, in fact, elsewhere rely on—the likelihood of a prompt resolution on appeal. Specifically, in support of their argument that a stay would not harm the
City, defendants assert that state court proceedings “will be delayed
only briefly” because, “pursuant to the Fourth Circuit’s Briefing Order, the appeal will be fully briefed no later than September of this
year.” ECF 183-1 at 15. Given defendants’ own expectation of a
speedy appellate process, and particularly in a case of this size, their
professed concern of a final judgment being reached in state court
before resolution of their appeal seems disingenuous.

93a
injury of having to litigate in state and federal court is “a
not-uncommon result given the limited jurisdiction of federal courts”). And, I disagree with defendants’ assertion
that federal courts are “uniquely qualified” to address the
issues presented by this case; our state courts are well
equipped to handle complex cases. 3
The last two factors call for “assessing the harm to the
opposing party and weighing the public interest.” Nken,
556 U.S. at 435. Where, as here, a government body is the
party opposing the stay, “[t]hese factors merge.” Id. According to defendants, these considerations support the
issuance of a stay because it would avoid costly, potentially wasteful litigation in state court. ECF 183-1 at 14.
They also argue that a stay would delay proceedings in
state court “only briefly” and, thus, would not prejudice
the City. Id. at 15.
I disagree. This case is in its earliest stages and a stay
pending appeal would further delay litigation on the merits of the City’s claims. This favors denial of a stay, particularly given the seriousness of the City’s allegations
and the amount of damages at stake. Further, even if the
remand is vacated on appeal, the interim proceedings in
state court may well advance the resolution of the case in
federal court. After all, the parties will have to proceed
with the filing of responsive pleadings or preliminary motions, regardless of the forum.
To be sure, defendants may seek, and the state court
may issue, a stay pending the Fourth Circuit’s resolution
of the appeal of the remand. However, defendants have
not met their burden of demonstrating that this Court
should issue a stay pending appeal. Accordingly, I shall
deny the defendants’ Motion to Stay.
3
The Court notes that many federal judges have previously served
as state court judges.

94a
III. CONCLUSION
For the reasons stated above, I shall deny the defendants’ Motion to Stay the case until such time as the Fourth
Circuit resolves the merits of defendants’ appeal of the
Remand Order. However, in accordance with the parties’
joint stipulation (ECF 184) and the Court’s Order approving the stipulation (ECF 185), I will extend the stay of the
Remand Order pending resolution of defendants’ anticipated appeal of this Order to the Fourth Circuit.
An Order follows.

95a
APPENDIX D
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

No. 19-1644
MAYOR AND CITY COUNCIL OF BALTIMORE,
Plaintiff-Appellee,
v.
BP P.L.C.; BP AMERICA, INC.; BP PRODUCTS
NORTH AMERICA, INC.; CROWN CENTRAL LLC;
CROWN CENTRAL NEW HOLDINGS LLC;
CHEVRON CORP.; CHEVRON U.S.A. INC.;
EXXON MOBIL CORP.; EXXONMOBIL OIL
CORPORATION; ROYAL DUTCH SHELL, PLC;
SHELL OIL COMPANY; CITGO PETROLEUM
CORP.; CONOCOPHILLIPS; CONOCOPHILLIPS
COMPANY; PHILLIPS 66; MARATHON OIL
COMPANY; MARATHON OIL CORPORATION;
MARATHON PETROLEUM CORPORATION;
SPEEDWAY LLC; HESS CORP.; CNX RESOURCES
CORPORATION; CONSOL ENERGY, INC.; CONSOL
MARINE TERMINALS LLC,
Defendants-Appellants
and
LOUISIANA LAND & EXPLORATION CO.;
PHILLIPS 66 COMPANY; CROWN CENTRAL
PETROLEUM CORPORATION,
Defendants

96a

Filed: October 1, 2019
ORDER
Upon review of submissions relative to the motion for
stay pending appeal, the court denies the motion.
Entered at the direction of Judge Wynn with the concurrence of Chief Judge Gregory and Judge Diaz.

